<html>
<title> - THE PUBLIC FACE OF THE TSA: EXAMINING THE AGENCY'S OUTREACH AND TRAVELER ENGAGEMENT EFFORTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    THE PUBLIC FACE OF THE TSA: EXAMINING THE AGENCY'S OUTREACH AND 
                      TRAVELER ENGAGEMENT EFFORTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2018

                               __________

                           Serial No. 115-50

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                      U.S. GOVERNMENT PUBLISHING OFFICE                    
30-484 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Bonnie Watson Coleman, New Jersey
Clay Higgins, Louisiana              William R. Keating, Massachusetts
Brian K. Fitzpatrick, Pennsylvania   Donald M. Payne, Jr., New Jersey
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Kyle D. Klein, Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Ms. Christine Griggs, Acting Assistant Administrator, Civil 
  Rights and Liberties, Ombudsman and Traveler Engagement, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Ms. Stacey Fitzmaurice, Deputy Assistant Administrator, Office of 
  Security Operations, Transportation Security Administration, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................     8
Ms. Harper Jean Tobin, Director of Policy, National Center for 
  Transgender Equality:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                             For the Record

The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Statement of Ian Watlington, National Disability Rights Network    27
  Letter From Guidedog.org.......................................    28
  Letter From the Electronic Privacy Information Center..........    29

                                Appendix

Questions From Chairman John Katko for the Transportation 
  Security Administration........................................    33
Questions From Ranking Member Bonnie Watson Coleman for the 
  Transportation Security Administration.........................    35

 
    THE PUBLIC FACE OF THE TSA: EXAMINING THE AGENCY'S OUTREACH AND 
                      TRAVELER ENGAGEMENT EFFORTS

                              ----------                              


                       Tuesday, February 27, 2018

             U.S. House of Representatives,
                    Subcommittee on Transportation 
                           and Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Katko (Chairman 
of the subcommittee) presiding.
    Present: Representatives Katko, Estes, Higgins, and Watson 
Coleman.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security will come to order.
    The subcommittee is meeting today to examine TSA's efforts 
to effectively engage with the traveling public in a manner 
that is positive, respectful, and leads to the success of the 
agency's mission to secure the aviation system from threats. I 
now recognize myself for an opening statement.
    For most Americans, TSA is the most visible component of 
the Department of Homeland Security and the only Homeland 
Security component which they regularly interact with. By 
screening over 2 million passengers per day, TSA is constantly 
interacting with a diverse array of individuals, all of whom 
are worthy of the utmost respect, efficiency, and security.
    Over the course of its history, TSA has had to at times 
swiftly implement new security measures in response to changing 
threats. Other times, the agency has sought to gradually adjust 
operations to improve effectiveness and efficiency. In both 
cases, TSA has often struggled to communicate clearly with the 
traveling public. Lack of stakeholder engagement has led to 
confusion among travelers, airports, air carriers, and even 
TSA's own front-line personnel.
    For example, in recent months, TSA began implementing new 
screening procedures for passenger's accessible property at the 
checkpoint. This new procedure, called Enhanced Accessible 
Property Screening, or EAPS, was met with some confusion and 
frustration, as travelers did not understand the reasoning 
behind TSA's new procedures.
    The reality is that the success of TSA's mission rises and 
falls on the agency's ability to consistently apply proven 
security measures across the aviation system. This cannot be 
done without soliciting the public's feedback, identifying and 
responding to the traveling public's needs, and learning how to 
effectively communicate with the traveling public.
    While TSA has, indeed, struggled in terms of communicating 
security information, the agency has experienced a measure of 
success in leveraging the power of social media to engage 
travelers. For example, TSA's own Instagram account has nearly 
a million followers--I wish I had that--and has been heralded 
by media outlets across the country for its interesting and at 
times even comical content. This account helps raise public 
awareness on aviation security surrounding explosives trace 
detection canines, prohibited items, checkpoint processes, and 
TSA PreCheck. TSA's social media presence has been called one 
of the best in the Federal Government and plays an important 
role in communicating information to travelers.
    Additionally, TSA's own AskTSA initiative has greatly 
improved the public's ability to quickly and easily ask 
questions about what items they can or cannot bring in their 
carry-on or checked baggage. TSA has also made improvements 
through its TSA Cares program, which allows passengers to call 
ahead and arrange for assistance at the security checkpoint, in 
order to minimize confusion and improve the experience for 
passengers who may need extra help navigating checkpoint 
processes and procedures. These methods for improving public 
engagement go a long way in transforming the passenger 
experience into one that is less stressful and yet more secure.
    It is incumbent upon TSA to view the traveling public as a 
partner in security and leverage that partnership in a manner 
that is collaborative and positive. I look forward to hearing 
what TSA is doing to further make improvements in public 
engagement, while protecting passenger's civil rights and 
liberties and respecting everyone with whom TSA personnel 
interact.
    While passenger experiences with TSA should be positive 
from a public service perspective, at the end of the day, 
effective public engagement has a direct impact on security and 
TSA's mission to protect transportation system.
    We cannot stay ahead of evolving threats or ensure the free 
movement of goods and people without effectively engaging 
traveling Americans and keeping them aware of the importance of 
TSA's mission. The key drivers of this must be mutual 
communication, cooperation, and respect.
    I thank the witnesses for agreeing to appear before the 
subcommittee today, and I look forward to your testimony.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                           February 27, 2018
    The subcommittee is meeting today to examine TSA's efforts to 
effectively engage with the traveling public in a manner that is 
positive, respectful, and leads to the success of the agency's mission 
to secure aviation security from threats.
    For most Americans, TSA is the most visible component of the 
Department of Homeland Security and the only DHS component with which 
they regularly interact. By screening over 2 million passengers per 
day, TSA is constantly interacting with a diverse array of 
individuals--all of whom are worthy of the utmost respect, efficiency, 
and security.
    Over the course of its history, TSA has had to--at times--swiftly 
implement new security measures in response to changing threats. Other 
times, the agency has sought to gradually adjust operations to improve 
effectiveness and efficiencies. In both cases, TSA has often struggled 
to communicate clearly to the traveling public.
    Lack of stakeholder engagement has led to confusion among 
travelers, airports, air carriers, and even TSA's own front-line 
personnel. For example, in recent months, TSA began implementing new 
screening procedures for passenger's accessible property at the 
checkpoint. This new procedure, called Enhanced Accessible Property 
Screening, or EAPS, was met with some confusion and frustration, as 
travelers did not understand the reasoning behind TSA's new procedures.
    The reality is that the success of TSA's mission rises and falls on 
the agency's ability to consistently apply proven security measures 
across the aviation system. This cannot be done without soliciting the 
public's feedback, identifying and responding to the traveling public's 
needs, and learning how to effectively communicate with the traveling 
public.
    While TSA has, indeed, struggled in terms of communicating security 
information, the agency has experienced a measure of success in 
leveraging the power of social media to engage travelers. For example, 
TSA's own Instagram account has nearly a million followers and has been 
heralded by media outlets across the country for its interesting and--
at times--even comical content.
    This account helps raise public awareness on aviation security 
surrounding explosives trace detection canines, prohibited items, 
checkpoint processes, and TSA PreCheck. TSA's social media presence has 
been called one of the best in the Federal Government, and plays an 
important role in communicating information to travelers. Additionally, 
TSA's own AskTSA intiative has greatly improved the public's ability to 
quickly and easily ask questions about what items they can or cannot 
bring in their carry-on or checked baggage.
    TSA has also made improvements through its TSA Cares program, which 
allows passengers to call ahead and arrange for assistance at the 
security checkpoint, in order to minimize confusion and improve the 
experience for passengers who may need extra help navigating checkpoint 
processes and procedures. These methods for improving public engagement 
go a long way in transforming the passenger experience into one that is 
less stressful, and yet, more secure.
    It is incumbent upon TSA to view the traveling public as partners 
in security, and leverage that partnership in a manner that is 
collaborative and positive. I look forward to hearing what TSA is doing 
to further make improvements in public engagement, while protecting 
passenger's civil rights and liberties and respecting everyone with 
whom TSA personnel interact.
    While passenger experiences with TSA should be positive from a 
public service perspective, at the end of the day, effective public 
engagement has a direct impact on security and TSA mission to protect 
transportation.
    We cannot stay ahead of evolving threats or ensure the free 
movement of goods and people without effectively engaging traveling 
Americans and keeping them aware of the importance of TSA's mission. 
The key drivers of this must be mutual communication, cooperation, and 
respect. I thank the witnesses for agreeing to appear before the 
subcommittee today, and I look forward to your testimony.

    Mr. Katko. I am pleased to recognize the Ranking Member of 
this subcommittee, the gentlelady from New Jersey, my friend, 
Ms. Watson Coleman, for her opening statement.
    Mrs. Watson Coleman. I want to thank you, Chairman Katko, 
for holding today's hearing and thank you to our witnesses for 
being here today to share your expertise with us.
    I have the special privilege of welcoming my niece, 
Christine Griggs, who was called by the majority today to 
testify on behalf of the Transportation Security 
Administration.
    Today's topic is an important one. TSA is perhaps the most 
public-facing agency of the Federal Government, interacting 
with over 2 million passengers daily at more than 440 airports 
across the Nation. TSA has a no-fail mission, as a single 
passenger allowed through with a weapon has the potential to 
cause great harm.
    At the same time, a single poor interaction at a checkpoint 
at which a passenger is disrespected, abused, or discriminated 
against has the potential to damage the TSA's reputation 
through negative media attention. Doing the right thing 2 
million times every day without a single failure requires 
vigilance of a well-trained and dedicated work force.
    TSA officers do a tremendous job under extremely difficult 
circumstances, and TSA leadership must continue to put them in 
a position to succeed. For the work force to be able to do its 
job, TSA must develop procedures that are effective as both 
security and passenger facilitation standpoints. This is why 
TSA's public engagement efforts are so very critical.
    TSA has made significant progress in expanding those 
efforts in recent years. It has convened groups that represent 
a wide range of passenger populations and provide TSA with 
feedback on its programs and policies such as the Disability 
and Medical Condition Coalition and the Multicultural 
Coalition.
    Many of the groups that engage with TSA, such as the 
National Center for Transgender Equality, provide critical 
perspective that can inform training that TSA provides to its 
officers. TSA has also expanded its social media presence, 
providing a mechanism for rapid response to passengers with 
questions or complaints about the screening process.
    While I commend TSA for its efforts, I believe more can and 
must be done. Too many passengers are still left feeling 
frustrated and singled out by TSA procedures. Transgender 
passengers are subjected to an inordinate number of alarms from 
technology that is unable to screen them effectively. 
Individuals with certain disabilities or medical conditions 
experience regular delays. And racial and religious minorities 
are left wondering whether their random selection for 
additional screening was truly random.
    As a National organization representing transgender 
Americans put it in a March 2017 letter to TSA, engagement that 
is limited to educating the public and addressing the personnel 
side of the screening experience fails to address the privacy, 
civil rights, and civil liberties issues inherent in current 
screening technology.
    My main question for TSA today is whether it can move 
beyond its current engagement efforts to better incorporate 
feedback from the public into its process for developing new 
procedures for trends and technologies. I recognize the 
severity of the terrorist threat TSA faces. I also recognize 
the need to protect specific procedures from public disclosure, 
which significantly hampers TSA's public engagement efforts.
    Continuing to improve TSA's screening operations to better 
account for passenger needs while facing an evolving threat 
landscape will not be easy, but the American public deserves 
nothing less. I look forward to hearing from our witnesses 
today about the challenges they face, their ideas for the 
future, and how we can be helpful.
    Again, I thank the Chairman for convening this hearing, and 
I yield back the balance of my time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                           February 27, 2018
    Today's topic is an important one. TSA is, perhaps, the most 
public-facing agency of the Federal Government, interacting with over 2 
million passengers daily at more than 440 airports across the country.
    TSA has a no-fail mission, as a single passenger allowed through 
with a weapon has the potential to cause great harm.
    At the same time, a single poor interaction at the checkpoint, in 
which a passenger is disrespected, abused, or discriminated against, 
has the potential to damage TSA's reputation through negative media 
attention.
    Doing the right thing 2 million times every day without a single 
failure requires vigilance of a well-trained and dedicated workforce.
    TSA officers do a tremendous job under extremely difficult 
circumstances, and TSA leadership must continue to put them in a 
position to succeed. For the workforce to be able to do its job, TSA 
must develop procedures that are effective as both security and 
passenger facilitation standpoints.
    That is why TSA's public engagement efforts are so critical. TSA 
has made significant progress in expanding those efforts in recent 
years.
    TSA has convened groups that represent a wide range of passenger 
populations and provide TSA with feedback on its programs and policies 
such as the Disability and Medical Condition Coalition and the 
Multicultural Coalition.
    Many of the groups that engage with TSA, such as the National 
Center for Transgender Equality, provide critical perspective that can 
inform training that TSA provides to its officers.
    TSA has also expanded its social media presence, providing a 
mechanism for rapid response to passengers with questions or complaints 
about the screening process.
    While I commend TSA for its efforts, I believe more can and must be 
done. Too many passengers are still left feeling frustrated and singled 
out by TSA's procedures.
    Transgender passengers are subjected to an inordinate number of 
alarms from technology that is unable to screen them effectively. 
Individuals with certain disabilities or medical conditions experience 
regular delays.
    And racial and religious minorities are left wondering whether 
their ``random'' selection for additional screening was truly random.
    As the national organization representing transgender Americans put 
it in a March 2017 letter to TSA, ``engagement that is limited to 
educating the public and addressing the personnel side of the screening 
experience fails to address the privacy, civil rights, and civil 
liberties issues inherent in current screening technology.''
    My main question for TSA today is whether it can move beyond its 
current engagement efforts to better incorporate feedback from the 
public into its processes for developing new procedures and 
technologies.
    I recognize the severity of the terrorist threat TSA faces. I also 
recognize the need to protect specific procedures from public 
disclosure, which significantly hampers TSA's public engagement 
efforts.
    Continuing to improve TSA screening operations to better account 
for passenger needs while facing an evolving threat landscape will not 
be easy, but the American public deserves no less.
    I look forward to hearing from our witnesses today about the 
challenges they face, their ideas for the future, and how we can be 
helpful.

    Mr. Katko. Thank you, Mrs. Watson Coleman. Other Members of 
the subcommittee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 27, 2018
    The TSA screener workforce has a complex security mission, with 
more than 2 million passengers traveling through security checkpoints 
on any given day. As threats evolve, so do TSA's security measures.
    Given the volume of passengers and the frequency with which 
security screening procedures change, it is critical that TSA 
communicates effectively with the flying public.
    In the years since TSA was established, Americans have experienced 
a wide range of changes to the checkpoint screening experience. 
Passengers have had to remove shoes, carry smaller containers of 
liquids, undergo hand-swabbing, go through body scanners, and be 
subject to a host of other security protocols.
    TSA has established a number of platforms to try to improve 
information sharing and outreach to the flying public, but more needs 
to be done to improve not only information sharing but also the 
screening experience.
    Indeed, while today's hearing is mainly focused on improving 
communications with the public, how the public perceives TSA comes down 
to what passengers experience at the checkpoint.
    I have long had concerns about TSA's behavioral detection program 
and the potential for discriminatory treatment. As the GAO has 
repeatedly observed, TSA has never been able to effectively validate 
its program as an effective security measure through peer-reviewed 
scientific evidence.
    Yet today, TSA trains its entire workforce on behavior detection 
practices. These practices open the door to racial profiling and sow 
distrust and resentment among the traveling public.
    As for communicating with the traveling public about its security 
procedures, TSA must do a better job across the board and particularly 
with populations disproportionately affected. For example, in 2017, TSA 
took two important steps to improve security for aviation--a temporary 
laptop ban and changing divestment procedures.
    While both changes stepped up security, they caused concern for 
passengers who were unsure what procedures they would undergo and 
whether they would be forced to leave their electronic devices at the 
checkpoint.
    I want to encourage TSA to continue its engagement with 
stakeholders and passengers to communicate policies and procedures and 
solicit feedback. TSA must become a nimble organization able to adjust 
its policies based on feedback it receives.
    While TSA cannot make sure every passenger is always 100 percent 
satisfied, TSA can ensure that no passengers are discriminated against 
as a result of its procedures. I look forward to today's conversation 
on how TSA can continue to improve its engagement with the public.

    Mr. Katko. We are grateful to have a very distinguished 
panel here today to testify. Let me remind the witnesses that 
your entire written statement will appear in the record so 
there is no need to re-read the whole thing if you don't want 
to.
    Our first witness, Ms. Christine Griggs, serves as acting 
assistant administrator for civil rights and liberties, 
ombudsman and travel engagement at the Transportation Security 
Administration. The first question I have for you is, how do 
you fit that title on one business card?
    Her office is responsible for ensuring that TSA employees 
and the traveling public are treated in a fair and lawful 
manner consistent with Federal laws and regulations protecting 
privacy. Mission-critical duties include affording redress, 
governing freedom of information, prohibiting discrimination 
and reprisal, while promoting diversity and inclusion. Ms. 
Griggs began working with TSA in 2002.
    The Chair now recognizes Ms. Griggs for her opening 
statement.

STATEMENT OF CHRISTINE GRIGGS, ACTING ASSISTANT ADMINISTRATOR, 
CIVIL RIGHTS AND LIBERTIES, OMBUDSMAN AND TRAVELER ENGAGEMENT, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Griggs. Good morning, Chairman Katko, Ranking Member 
Watson Coleman, and distinguished Members of the subcommittee. 
Thank you for the opportunity to appear before you to discuss 
the TSA's approach to public engagement.
    As the acting assistant administrator for TSA's Office of 
Civil Rights and Liberties, traveler engagement ombudsman, I am 
responsible for overseeing the office charged with engaging a 
number of groups, as well as the general public, to ensure that 
various passenger constituencies are well-represented in our 
policy deliberations. This includes the Traveler Engagement 
Division, which develops and implements policies and procedures 
regarding the DHS Traveler Redress Inquiry Program, the DHS 
Contact Center, and the Disability, Multicultural and Customer 
Service Branches, as well as the Ombudsman Division, which 
provides neutral, informal, and confidential problem resolution 
services to the public for issues, concerns, and conflicts 
involving TSA policies and procedures.
    Integral to TSA's success in carrying out our critical 
airport security screening function is our ability to 
communicate with and understand our audiences. TSA is engaged 
in a multifaceted approach to improve our ability to 
communicate with the public through a variety of forums, 
including one-on-one engagement with our TSOs, public forums, 
social media, and the internet.
    In fiscal year 2017, the TSA contact center responded to 
more than 601,000 inquiries by phone or e-mail. The TCC answers 
questions about the checkpoint experience, addresses complaints 
or concerns, and serves as the intake point for travelers who 
need information about TSA PreCheck, DHS traveler redress, or 
their civil rights and civil liberties, among other topics.
    Reflective of the progress TSA is making in this effort, in 
fiscal year 2017, the TCC experienced a 14 percent decrease in 
the rate of complaints, despite a 3 percent increase in 
passenger throughput. While there are many reasons for this 
improvement, a key element of our success involves outreach. In 
TSA's earliest days, we reached out to community 
representatives to help us understand the traveling public's 
needs and concerns.
    As a result of that outreach was the establishment of TSA's 
Disability and Medical Condition Coalition and the TSA 
Multicultural Coalition. These coalitions represent a wide 
spectrum of travelers, including Muslims, Native Americans, 
persons with ostomies, mothers traveling with breast milk, 
transgender individuals, people who use wheelchairs, and 
others.
    One example of the positive outcome from such engagement is 
our work within the Sikh community which resulted in a change 
in TSA's screening procedures. By taking into consideration the 
religious sensitivities of this community, TSA now allows Sikh 
passengers to pat down their own religious headwear and then 
submit their hands for additional screening.
    Another example is our work to secure civil rights 
equities, including disability, transgender, and headwear, in 
the next broad agency announcement to industry to acquire 
improved people, process, and technology screening solutions. 
In late 2016, my team met with the innovation task force to 
discuss this broad agency announcement. This coincided with our 
work with the transgender community and their on-going concerns 
that TSA's technology systems are binary and can be problematic 
for transgender travelers at the security checkpoint.
    As a result, the broad agency announcement TSA issued in 
early 2017 to solicit technology ideas from industry now 
includes civil rights equities which should promote 
improvements to screening of persons with disabilities, 
screening of headwear, and screening of transgender passengers.
    Another way TSA engages with the public is through TSA 
Cares, which was established in 2011 and provides a toll-free 
hotline that enables travelers to ask questions about screening 
policies, procedures, and what to expect at the security 
checkpoint. TSA saw an 11 percent call volume increase in 
fiscal year 2017 for TSA Cares assistance. Last year, we also 
began a TSA Cares video series to help better inform travelers 
of what to expect during the screening process.
    Our other key link to the public is through our social 
media presence, which has continued to grow. Our social media 
efforts aim to showcase TSA's screening efforts, canines, 
packing tips, and initiatives that help to increase awareness. 
Our Instagram account, which highlights the prohibited items, 
has more than 840,000 followers. We have also continued our 
commitment to customer service by helping passengers in real 
time 365 days a year through @asktsa, which is our social care 
team that monitors Twitter and Facebook. To date, we have 
received more than 450,000 questions from the traveling public 
through @asktsa.
    In closing, with the ever-increasing number of screening 
interactions TSA has every day, we recognize our ability to 
communicate effectively with all of our stakeholders is 
crucial. Thank you for the opportunity to testify before you 
today. I look forward to your questions.
    [The joint prepared statement of Ms. Griggs and Ms. 
Fitzmaurice follows:]
  Joint Prepared Statement of Christine Griggs and Stacey Fitzmaurice
                           February 27, 2018
    Good afternoon Chairman Katko, Ranking Member Watson Coleman, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you to discuss the Transportation Security 
Administration's (TSA) approach to public engagement. TSA appreciates 
the committee's interest in how we engage our most important 
stakeholders--the traveling public--and looks forward to sharing our 
various efforts to keep them informed on security procedures. Through 
TSA's Office of Civil Rights and Liberties, Ombudsman and Traveler 
Engagement, we work closely with a number of groups to ensure that 
various passenger constituencies are well-represented in our policy 
deliberations. Similarly, our Office of Security Operations engrains 
within our Transportation Security Officer (TSO) workforce the 
importance of effectively communicating requirements and processes to 
travelers during the screening process.
    TSA's daily interaction with the public far exceeds that of many 
other Government agencies. For example, on an average day in 2017, TSA 
Transportation Security Officers came in contact with about 2.4 million 
travelers at one of more than 440 Federalized airports Nation-wide. 
These travelers are all unique individuals of various backgrounds and 
ability, and many are stressed or unfamiliar with the airport screening 
process. Additionally, every day TSA screens 1.2 million checked bags 
and 4.4 million carry-on bags. TSA applies a range of screening 
processes to address a very real, persistent, and adapting threat to 
ensure the traveling public and our transportation systems are secure.
    With a workforce spread from Maine to the Mariana Islands, 
screening such a large volume of travelers and fulfilling our vital 
National security function while meeting the varied needs of the 
traveling public can be a challenge. It is our duty to keep travelers 
safe and secure. And it is also our duty to treat every traveler with 
dignity and respect. We would be remiss to not acknowledge the 
tremendous efforts of TSA's front-line workforce in carrying out our 
security mission and our civil rights mandate with integrity, 
commitment, and vigilance every day.
    Integral to TSA's success and ability to carry out its critical 
airport security screening function in a seamless manner is our ability 
to communicate with and understand our audiences. TSA is engaged in a 
multi-faceted approach to improve its ability to communicate with both 
the public and our front-line workforce--communication that involves 
both conveying and receiving information. TSA's efforts have focused on 
educating the public on our processes through a variety of forms, 
including one-on-one engagement opportunities between the public and 
our TSOs, public forums, social media platforms, and the internet.
    We are focused on ensuring our TSOs are aware of the diverse needs 
of travelers, sensitive to cultural differences, and able to 
effectively carry out screening requirements. To train TSOs in these 
screening processes, TSA established the TSA Academy in early 2016. TSA 
new-hire training is now conducted at the TSA Academy in the Federal 
Law Enforcement Training Center (FLETC) in Glynco, Georgia--a move that 
centralizes training for new employees, which previously was conducted 
locally at U.S. airports. While at FLETC, TSA student officers train at 
replica checkpoints involving real-world scenarios such as social 
engineering tactics, screening individuals with disabilities, and how 
to effectively implement alarm resolution procedures.
    TSA is also committed to affording travelers with multiple 
mechanisms to provide feedback, and uses that information to improve 
performance. Reflective of the progress TSA is making in this effort, 
in fiscal year 2017 the TSA Contact Center (TCC) experienced a 14 
percent decrease in the rate of complaints despite a 3 percent increase 
in passenger throughput.
    While TSA is pleased with this positive trend, we are focused on 
continuous improvement and ensuring we continue to communicate 
effectively at all levels of the organization. Outreach and engagement 
to educate the traveling public and better understand their needs is a 
priority and manifests itself in the multiple on-going programs and 
efforts listed below:
  <bullet> In TSA's earliest days, we reached out to community 
        representatives to help us understand the traveling public's 
        needs and concerns. A result of that outreach was the 
        establishment of the TSA Disability and Medical Condition 
        Coalition and the TSA Multicultural Coalition. These coalitions 
        represent a wide spectrum of travelers including Muslims, 
        Native Americans, persons who have ostomies, mothers traveling 
        with breast milk, transgender individuals, people who use 
        wheelchairs, and others. We also host an annual conference with 
        those coalitions in Arlington, Virginia, to update our members 
        on TSA processes and procedures, hear concerns and feedback, 
        and answer questions.
  <bullet> An example of the positive outcome from such engagement is 
        our work with the Sikh community, which resulted in a change in 
        TSA's screening procedures. By taking into consideration the 
        religious sensitivities of this community, TSA now allows Sikh 
        passengers to pat-down their own religious headwear and then 
        submit their hands for additional screening. The change in 
        procedure reduces the need for the TSO to touch the passenger 
        or for the removal of the passenger's turban. This example 
        demonstrates how our continued engagement efforts with a 
        stakeholder can result in positive changes to our screening 
        procedures that factor in multicultural, religious, and 
        personal sensitivities, but also maintain our strong dedication 
        to security.
  <bullet> TSA Cares was established in 2011 and provides a toll-free 
        hotline that enables travelers to ask questions about screening 
        policies, procedures, and what to expect at the security 
        checkpoint. The hotline is available Monday-Friday, 8 o'clock 
        a.m. until 11 o'clock p.m., and on weekends and holidays from 8 
        o'clock a.m. until 9 o'clock p.m. Originally designed for 
        travelers with disabilities and medical conditions, TSA Cares 
        is now available to other travelers who need additional 
        assistance at the airport/checkpoint. TSA promotes TSA Cares 
        through the TSA website and interactions with the Disability 
        and Medical Condition and Multicultural Coalitions. Also, when 
        a traveler demonstrates a need for assistance, TSOs advise them 
        of the program during the screening process. TSA saw an 11 
        percent call volume increase in fiscal year 2017.
  <bullet> Last year, we began a TSA Cares video series to educate and 
        proactively engage travelers with disabilities or medical 
        conditions before arriving at the airport. These videos, 
        available on the Travel Tips page of the TSA website, help 
        better inform travelers of what to expect during the security 
        screening process when traveling with special circumstances, 
        medical devices, equipment, or medication. To date, we have 
        developed three videos, in collaboration with National advocacy 
        groups and organizations, focused on screening processes for 
        transgender travelers, persons undergoing cancer treatment, and 
        individuals traveling with medication and medical devices. 
        Currently, we are working in partnership with a Nationally-
        renowned autism organization to develop a video to assist 
        people with developmental and intellectual disabilities.
  <bullet> TSA's Passenger Support Specialist program, also known as 
        PSS, is designed to provide specially-trained individuals to 
        resolve traveler-related screening concerns immediately and in-
        person, enhance the traveler experience, and maintain 
        efficiency in carrying out our mission. The PSS provides in-
        person, on-the-point assistance to passengers requesting help 
        with the screening process by assisting individuals with 
        medical conditions or disabilities get through the screening 
        process as well as responding to requests for assistance 
        submitted through the National TSA Cares help-line. TSA has 
        over 2,250 trained PSS personnel assigned throughout the more 
        than 440 Federalized airports.
  <bullet> Training for TSOs is conducted at the TSA Academy and in 
        airport settings to facilitate a better understanding of a 
        diverse array of passenger needs. Some issues of focus include 
        the screening of cancer survivors, passengers with ostomies, 
        passengers on the autism spectrum, sexual trauma survivors, 
        passengers with prosthetics, and travelers who are sensitive or 
        averse to touch. Of interest to cultural and religious 
        communities, we have collaborated on awareness and training on 
        topics that include but are not limited to Christianity, 
        Hinduism, Islam, Judaism, Sikhism, transgender issues, language 
        access, and Native American issues.
  <bullet> In fiscal year 2017, the TCC responded to more than 601,000 
        inquiries by phone or email. The TCC answers questions about 
        the checkpoint experience, addresses complaints or concerns, 
        and serves as the intake point for travelers who need 
        information about the TSA PreCheck program, DHS Traveler 
        Redress Inquiry Program, or civil rights and civil liberties 
        protections, among many other topics.
  <bullet> TSA's social media presence has continued to grow. Our 
        Instagram account--which highlights the prohibited items that 
        are intercepted at the checkpoint--has more than 840,000 
        followers and in 2017 was 1 of 5 nominees for two prestigious 
        Webby Awards, the international award honoring excellence on 
        the internet. Our social media efforts showcase TSA's screening 
        efforts, canines, packing tips, and initiatives that help to 
        increase traveler awareness. In addition, TSA's main Twitter 
        account shared 1,200 tweets in 2017, resulting in more than 31 
        million impressions and over 207,000 followers. Through 
        Twitter, we focus on providing resources that will be most 
        useful to passengers, to include TSA PreCheck information, TSA 
        policy or procedure updates (via press release links), 
        innovation information, major event information (e.g., Super 
        Bowl), and AskTSA promotion.
  <bullet> In 2017, TSA's blog generated 73 posts, with more than 3.5 
        million page views. The blog includes information to help 
        address passenger concerns, a weekly highlight of intercepted 
        firearms, travel tips, and serves as a platform to communicate 
        new policies and initiatives. In November 2017, TSA officially 
        launched a Facebook page and broadcasted its first Ask Me 
        Anything on Facebook Live with more than 5,000 views. The Ask 
        Me Anything series allows viewers to ask questions directly of 
        TSA subject-matter experts.
  <bullet> Through AskTSA, our social care team that monitors the 
        @AskTSA Twitter and Facebook messenger accounts to address 
        passenger inquiries, we continued our commitment to customer 
        service by helping passengers in real-time, 365 days a year. To 
        date, TSA has received and responded to more than 450,000 
        questions from the traveling public via its AskTSA Twitter and 
        Facebook Messenger accounts. This includes responding to more 
        than 110,000 questions on what passengers can bring on a plane, 
        more than 33,000 inquiries on TSA PreCheck including Known 
        Traveler Number resolution, and more than 12,000 responses to 
        help passengers with disabilities and medical conditions with 
        the security screening process.
  <bullet> TSA's customer-centric, mobile-compliant website, TSA.gov, 
        gets more than 7 million page views each month. The agency app, 
        MyTSA, was completely overhauled last year, adding features 
        such as TSA PreCheck checkpoint hours, a graph predicting how 
        busy airport checkpoints will be based on historical data, live 
        assistance with AskTSA, and a searchable database of items that 
        can be placed in carry-on and checked baggage. All these 
        efforts aim to make the traveling process transparent and 
        understandable to the public.
  <bullet> TSA increased its YouTube presence in 2017 with more than 20 
        new videos, ranging from travel tips to interviews, and 
        received a total of 1,638,616 views (1.5 percent increase from 
        2016). We aim to inform and educate travelers about TSA's 
        screening policies and procedures to better prepare them for 
        the screening process.
  <bullet> Finally, as we continue to raise the baseline of aviation 
        security, communicating changes to procedures is critical to 
        protect travelers and the transportation systems. For example, 
        last summer TSA implemented new security measures for carry-on 
        baggage that require travelers to place all personal 
        electronics larger than a cell phone in bins for X-ray 
        screening in standard lanes. TSOs serving as Divestiture 
        Officers provide a critical ``face-to-face'' element for 
        implementing those procedures by communicating the requirements 
        to travelers at the checkpoint, answering their questions, and 
        preparing them for the subsequent screening process. 
        Additionally, TSA utilized traditional media, social media, and 
        industry partners to inform the public about the changes to 
        better prepare travelers for the checkpoint security process. 
        We were also able to field questions in real-time through 
        AskTSA, receiving instant feedback from passengers and 
        providing quick resolution to concerns resulting from the 
        changes in security.
    In closing, today's threat environment is more dynamic, more 
profound, and more complex than ever before. With the ever-increasing 
number of screening interactions TSA has every day, many of which 
involve travelers with unique needs, communication is more important 
than ever. As we execute our critically important transportation 
security mission, we remain committed to doing so in a manner that is 
respectful, dignified, and professional. We believe our efforts to 
engage, educate, and learn from the public are showing positive 
results. TSA remains committed to continuing these types of efforts in 
the future.
    Thank you for the opportunity to testify before you today. We look 
forward to your questions.

    Mr. Katko. Thank you very much, Ms. Griggs, and I 
appreciate you being here today and your testimony.
    The next witness is Ms. Stacey Fitzmaurice. Ms. Fitzmaurice 
currently serves as a deputy assistant administrator for the 
Office of Security Operations at TSA and is responsible for 
overseeing risk-based adaptive security measures at airports 
Nation-wide. She previously served as a deputy assistant 
administrator for TSA's Office of Intelligence and Analysis and 
has also contributed to the mission of U.S. Customs and Border 
Protection as the acting director of new targeting programs 
within the National Targeting Center.
    Ms. Fitzmaurice is a graduate of the DHS Senior Executive 
Service candidate development program, as well as Elon 
University. The Chair now recognizes Ms. Fitzmaurice for her 
opening statement.

       STATEMENT OF STACEY FITZMAURICE, DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF SECURITY OPERATIONS, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Fitzmaurice. Good morning, Chairman Katko, Ranking 
Member Watson Coleman, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you to discuss how the Transportation Security Administration 
engages with our most important stakeholder, the traveling 
public, and our various efforts to keep them informed on 
security procedures.
    As the deputy assistant administrator of TSA's Office of 
Security Operations, I am responsible for helping oversee the 
domestic operational arm of TSA, which secures the Nation's 
transportation infrastructure and screens all commercial 
airline passengers, baggage, and cargo. OSO represents the 
front line of physical security screening operations with our 
transportation security officers serving as our primary 
interface with the public.
    On an average day in 2017, our officers are in contact with 
about 2.4 million travelers at more than 440 Federalized 
airports Nation-wide. With the work force spread from Maine to 
the Mariana Islands, screening such a large volume of travelers 
and fulfilling our vital National security function, while 
meeting the varied needs of the traveling public can be a 
challenge. It is our duty to keep travelers safe and secure, 
and it is also our duty to treat every traveler with dignity 
and respect.
    Despite these challenges, we remain focused on ensuring our 
TSOs are aware of the diverse need of travelers, sensitive to 
cultural differences, and able to effectively carry out 
screening requirements. To train TSOs in these screening 
processes, TSA established the TSA academy in early 2016. TSA 
new hire training is now conducted at the Federal Law 
Enforcement Training Center, or FLETC, down in Glynco, Georgia, 
a move that centralizes training for new employees, which was 
previously held at U.S. airports.
    While at FLETC, TSA student officers train at replica 
checkpoints involving real-world scenarios, such as social 
engineering tactics, screening individuals with disabilities, 
and how to effectively implement alarm resolution procedures. 
This training allows the TSOs to develop a better understanding 
of a diverse array of passenger needs.
    TSOs also play a critically important role in ensuring 
travelers are educated about and prepared for the screening 
process. Last summer, as part of a continued effort to raise 
the baseline of aviation security, TSA implemented new security 
measures for carry-on baggage that required travelers to place 
all personal electronics larger than a cellphone in bins for X-
ray screening in standard lanes.
    In implementing those procedural changes, TSOs designated 
as diversification officers provide a critical face-to-face 
element and communicate the requirements to travelers at the 
checkpoint, answer questions from the travelers, and prepare 
them for the subsequent screening process.
    Complementing and supplementing such efforts, TSA utilized 
traditional media, social media, and industry partners to 
inform the public about the changes to better prepare travelers 
for the checkpoint security process. We were also able to field 
questions in real-time through @asktsa receiving instant 
feedback from passengers and providing quick resolution to 
concerns resulting from the changes in security.
    In closing, today's threat environment is more dynamic, 
more profound, and more complex than ever before. As threats 
evolve, we must adapt to our adversaries, which necessitates 
changes to policies and procedures at the checkpoints.
    As these processes change and adapt, we must ensure that we 
effectively communicate to the public so that travelers know 
what to expect, which supports for an efficient screening 
experience. Additionally, we remain committed to receiving 
feedback from travelers and where possible adjusting our 
processes to better meet individual needs, while still 
achieving our security objectives.
    Thank you for the opportunity to testify before you today. 
I look forward to your questions.
    Mr. Katko. Thank you, Ms. Fitzmaurice. We appreciate you 
being here today.
    Our third witness is Harper Jean Tobin. Ms. Tobin serves as 
a director of policy for the National Center for Transgender 
Equality. She leads NCTE's advocacy with Congress and U.S. 
Federal agencies and also directs NCTE's policy work.
    Prior to her work with the NCTE, Ms. Tobin worked with the 
Federal Rights Project of the National Senior Citizens Law 
Center. Ms. Tobin holds law and social work degrees from Case 
Western Reserve University. The Chair now recognizes Ms. Tobin 
for her opening statement.

 STATEMENT OF HARPER JEAN TOBIN, DIRECTOR OF POLICY, NATIONAL 
                CENTER FOR TRANSGENDER EQUALITY

    Ms. Tobin. Thank you, Chairman Katko, Ranking Member Watson 
Coleman, distinguished Members of the subcommittee. Thank you 
for the opportunity to speak to you today.
    NCTE has been engaging with TSA for nearly a decade now, my 
whole time on staff. We see the challenges facing transgender 
travelers as part of a wider spectrum of concerns that affect 
the traveling public, including particular concerns for 
travelers with disabilities, racial and religious minorities, 
and survivors of sexual trauma.
    As long as TSA relies on body scanner units and intimate 
pat-downs as primary passenger screening tools, we believe 
there will be a cost to travelers' privacy, dignity, and 
liberty, and questions about whether that cost is paying off in 
real security benefits. That cost is borne by all travelers, 
but it tends to be greater for anyone who is perceived as being 
different.
    In 2015, NCTE conducted a survey of over 28,000--sorry, 
nearly 28,000 transgender Americans in all 50 States. Of those 
who had flown in the last year, 43 percent reported at least 
one negative TSA experience related to being transgender. These 
included being misgendered or harassed, being loudly questioned 
about their gender or body parts, sometimes in front of young 
family members, and being asked to remove or lift clothing to 
show an undergarment or a sensitive area of the body. Some 
reported leaving the checkpoint in tears, while others feared 
that being outed to other travelers in the screening process 
could make them a target for violence. Some parents have told 
us they were afraid to fly with their transgender children 
because of the embarrassment they could face.
    Today's AIT can't distinguish between human body parts and 
a potential threat object and instead appears to rely in part 
on assumptions about typical body contours of men and women. 
This leads to alarms caused solely by sensitive parts of the 
body or by undergarments. Many travelers report to us that they 
routinely experience alarms in the chest or groin area 
necessitating pat-downs and sometimes humiliating 
conversations.
    I have to say, I personally have experienced this many 
times, as have many members of NCTE's staff and board and our 
colleagues and friends.
    One of NCTE's former board members, who is also a senior 
citizen, wrote to me just last month that she was pulled out of 
line at BWI because of what she was told was an anomaly in the 
groin area and was patted down--or as she put in her own words, 
``groped''--by no less than three officers.
    Another colleague and friend of mine published an op-ed in 
2015 about traveling to the District of Columbia for an 
internship. He wrote that his excitement over the trip was 
quickly squelched when he was told, ``Sir, we need to know what 
is in your pants.''
    Now, we understand TSA's important security mission. It is 
important also to understand that travelers don't want to have 
conversations like this when they are trying to get on a plane. 
That was a conversation, as you can imagine, that was very 
uncomfortable for my colleague, frankly even more uncomfortable 
than my sitting here talking about it before a Congressional 
subcommittee, because we have here a Government agency that has 
made it its business to know what is in Americans' pants.
    There has got to be a way to keep Americans safe without 
innocent travelers being asked questions about, frankly, their 
genitals or having them touched by uniformed strangers every 
time they try to get on a plane.
    Now, over the years, TSA, as I said, has worked with--NCTE 
has worked with TSA a great deal. We have briefed them. We have 
joined stakeholder calls and conferences. We have offered input 
on training and web content. In 2014, I even received a 
community partner award from then-Administrator Pistole.
    At the same time, we have also seen the real limits of this 
engagement. TSA, as the Chairman noted, has more contact--I 
would add quite literally--contact with the public than just 
about any other agency. The staff of CRL/OTE really want and 
try, in my experience, to improve the passenger experience, and 
they have done so much, as you have just heard, to engage the 
public on that. But in my view, they are hamstrung in that 
mission by the flaws of the current screening model.
    Their materials, while they work very hard on them and have 
produced videos for specific groups of travelers, different web 
pages for specific groups of travelers, the materials are often 
unable to answer basic questions because of secrecy or 
unpredictability, and they are often unable to respond 
meaningfully to complaints from individuals because the things 
being complained of are baked into the system. So they really 
try. But public outreach, you know, has to inform policy 
procedures and technology.
    We understand TSA is in the process of demonstrating 
upgrades to AIT. When it comes to innovation, we certainly hope 
this will lead to improvements, but we urge the agency to think 
about more than making tweaks. Is continuing to invest in AIT 
units as primary tools really the right move for the public? 
Can it make more use of less invasive tools? How can the agency 
truly minimize false alarms and minimize its touch rate? How 
can reaching out and hearing travelers' questions and concerns 
inform TSA's approach on the front end, not the back end?
    Again, I have great respect for the folks at CRL/OTE and 
for the individual TSOs who are working very hard and often 
don't relish the intrusiveness nature of some of their work. I 
hope today's hearing can help ensure that TSA's public 
engagement leads to real improvements in the passenger 
experience.
    Thanks.
    [The prepared statement of Ms. Tobin follows:]
                Prepared Statement of Harper Jean Tobin
                           February 27, 2018
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee: My name is Harper Jean Tobin, and I am director of policy 
for the National Center for Transgender Equality--a role I have served 
in since 2009. Thank you for the opportunity to testify regarding the 
efforts of Transportation Security Administration (TSA) to engage the 
traveling public. The National Center for Transgender Equality (NCTE) 
is a Nation-wide, non-profit, non-partisan organization founded in 2003 
to promote public understanding, opportunity, and well-being for the 
nearly 2 million Americans who are transgender.
    In addition to conducting public education and ground-breaking 
National survey research, NCTE works with Federal, State, and local 
agencies on a wide range of issues, and we have been in dialog with the 
TSA during my entire 9-year tenure at the organization. While my 
testimony will focus on what I know best--the challenges facing 
transgender travelers, and engagement between TSA and LGBT 
communities--we see these particular concerns as part of a wide 
spectrum of privacy and other concerns that affect the traveling public 
more broadly, including particular problems face by travelers with 
disabilities and members of religious minorities.
    While we recognize the importance of TSA's mission of protecting 
lives, we believe that mission can be advanced without compromising the 
privacy, dignity, and personal liberty of the traveling public. As 
Hofstra Law School professor Irina Manta recently argued in the NYU 
Journal of Legislation and Public Policy, passenger screening must be 
based on a robust analysis of the privacy, dignity, and liberty costs 
and the actual security benefits of particular screening measures.\1\ 
Traveler outreach and engagement should continually inform this 
analysis and drive improvement.
---------------------------------------------------------------------------
    \1\ Irina D. Manta, Choosing Privacy, 20 N.Y.U. J. LEG. & PUB. POL. 
649 (2017).
---------------------------------------------------------------------------
               challenges faced by transgender travelers
    Transgender travelers experience serious difficulties with the 
current approach to passenger screening. As TSA works to pursue 
innovation in passenger screening--including in screening technology--
we strongly urge the agency to prioritize the privacy, civil rights, 
and civil liberties of passengers, including by making imaging 
technology gender-neutral and eliminating alarms caused solely by 
sensitive parts of the body-namely, the chest or genitals--or by 
undergarments, rather than any foreign object.
    TSA's current Advanced Imaging Technology (AIT) seriously 
compromises the privacy and dignity of transgender travelers. In 
particular, transgender men routinely encounter alarms caused by their 
chest compression vests or by their chests themselves, while 
transgender women frequently encounter alarms caused solely by their 
private parts. These alarms and resulting additional screening--no 
matter how professionally conducted--are unnecessary, humiliating, and 
deeply concerning, especially for travelers who experience them again 
and again. That's true whether you're a trans woman like Shadi Petosky, 
who tearfully live-tweeted her TSA ordeal in Orlando in 2015,\2\ or CNN 
commentator Angela Rye (who is not transgender), whose video of her 
genital pat-down in Detroit made for queasy viral viewing in late 
2016.\3\ Whether transgender or not, the screening process can be 
especially harrowing for children, and for survivors of sexual trauma. 
Some parents of transgender children are quite afraid of air travel 
because of the humiliation their child could face in the case of an 
alarm in a sensitive area, a pat-down, or being publicly mis-gendered.
---------------------------------------------------------------------------
    \2\ Katie Rogers, TSA Defends Treatment of Transgender Air 
Traveler, NY TIMES (Sept. 22, 2015), https://www.nytimes.com/2015/09/
23/us/shadi-petosky-tsa-transgender.html.
    \3\ Angela T. Rye, Dear TSA: The country is not safer because you 
grab vaginas, CNN.com (Dec. 22, 2016), https://www.cnn.com/2016/12/16/
opinions/tsa-invasive-pat-down-rye/index.html
---------------------------------------------------------------------------
    In 2015 NCTE conducted a ground-breaking survey of nearly 28,000 
transgender adults across all 50 States, and 53% of our respondents had 
gone through airport security in the previous year.\4\ Of those, 43% 
reported at least one negative experience with passenger screening 
related to being transgender in the previous year. These negative 
experiences included being referred to as the wrong gender or verbally 
harassed by Transportation Security Officers; receiving additional 
screening including pat-downs because of gender-related clothing; being 
subjected to a pat-down by an officer of the wrong gender; being loudly 
questioned about their gender or their body parts at the checkpoint; 
and being asked to remove or lift clothing to show an undergarment or 
sensitive area of the body. Some respondents reported being detained 
for over an hour or missing their flight due to gender-related 
screening issues. Some reported having to go through scanners multiple 
times; receiving multiple pat-downs; having TSOs refuse to pat them 
down because they were transgender; being questioned about their gender 
in front of their children; and leaving the checkpoint in tears. Some 
said they were simply too afraid to fly, or wracked with nerves every 
time. Some demanded to speak to supervisors or filed complaints and 
felt TSA was very responsive to complaints about insensitive or 
harassing treatment, while others were told nothing could be done 
because their bad experience was inherent in the current screening 
procedures.
---------------------------------------------------------------------------
    \4\ James, S.E., Herman, J.L., Rankin, S., Keisling, M., Mottet, 
L., & Anafi, M. (2016). The Report of the 2015 U.S. Transgender Survey, 
221-22. Washington, DC: National Center for Transgender Equality.
---------------------------------------------------------------------------
    While our survey did not ask specifically about issues related to 
AIT, these are the most common issues NCTE hears about from travelers. 
The AIT currently in use require TSOs to input a traveler's gender, 
making it a part of their job to scrutinize and guess or ask the gender 
of every traveler. Many travelers--some who are transgender, and some 
who are not--find themselves having to correct TSOs and be scanned 
again. This not only delays travelers, it can be embarrassing. More 
concerning is the very common problem of alarms based on sensitive body 
parts, or on sensitive undergarments such as chest binders or personal 
prostheses that trans travelers may wear. Alarms lead to pat-downs, 
which many travelers find inherently humiliating. We have heard from 
many travelers that they routinely experience alarms in the chest or 
groin, pat-downs, and very uncomfortable conversations when they 
travel. I personally have experienced this many times, as have many 
NCTE staff and board members and our friends, colleagues, and family 
members. For example, one of our survey respondents told us the 
following:

``Going through TSA, I am repeatedly asked to go back through the scan 
because there is an anomaly with my chest or groin. It is not resolved 
with a second scan, and I am subjected to a TSA agent's hands on my 
chest and up in my groin.''\5\
---------------------------------------------------------------------------
    \5\ Submitted to NCTE by a respondent to the 2015 U.S. Transgender 
Survey.

    One of NCTE's former board members, who is also a senior citizen, 
---------------------------------------------------------------------------
wrote to us the following just last month:

``I flew from Baltimore-Washington International Airport (BWI) to San 
Francisco today for a [business] meeting. After I went through the 
scanner, TSA screeners pulled me out of line, and said there was an 
`anomaly in the groin area,' and that they would have to pat me down. I 
was concerned about making my flight, so I said OK. I was then patted 
down (or groped) by two women, followed by one man--buttocks, groin and 
legs. When they had finished, they made no further reference to the 
`anomaly,' but said they would have to swab my hands; they did that, 
and after checking the swab, they sent me through.''\6\
---------------------------------------------------------------------------
    \6\ Personal correspondence, Jan. 26, 2018.

    A colleague and personal friend, attorney Carl Charles, published 
an op-ed in October 2015 describing his traveling experiences as a 
transgender man.\7\ Mr. Charles, then a law student traveling to the 
District of Columbia for a summer internship, wrote that his excitement 
over the trip was quickly squelched when he heard a TSO shout, ``We 
have anomalies in the chest and groin area. Private screening, female 
agent requested.'' Now, the agency has been responsive to complaints 
that about individual officers mis-gendering travelers, and we 
appreciate that. It has also since retired the term ``anomaly'' in 
favor of the term, ``alarm''--leading to reports of TSOs stating, 
``There is something alarming in your groin.'' But the problem here is 
more basic than terminology or even who is conducting a pat-down. The 
next thing Mr. Charles was asked was told was, ``Sir, we need to know 
what's in your pants.''
---------------------------------------------------------------------------
    \7\ Carl Charles, Dear TSA, My Body Is Not an Anomaly, ADVOCATE 
(Oct. 1, 2015), https://www.advocate.com/commentary/2015/10/01/dear-
tsa-my-body-not-anomaly.
---------------------------------------------------------------------------
    As you can imagine, the conversation that followed was very 
uncomfortable--frankly, even more uncomfortable than my sitting here 
before a Congressional subcommittee discussing it. Because here we have 
a Government agency that has made it its business to know what's in 
Americans' pants, every time they fly. And there has got to be a way to 
keep Americans safe without innocent travelers being asked questions 
about the contents of our underpants by Government officials, or having 
our private parts touched by uniformed strangers every time we get on a 
plane.
                tsa's engagement with the lgbt community
    Improving the passenger experience has long been one of TSA's 
stated goals--one that was restated in 2016 when establishing the 
agency's Innovation Task Force.\8\ We know that outreach and engagement 
with the traveling public through the Office for Civil Rights & 
Liberties, Ombudsman & Traveler Engagement (CRL/OTE)--including with 
NCTE and other LGBT community organizations--has been valuable. NCTE 
has consistently engaged with CRL/OTE for nearly a decade. Beginning in 
early 2010, we began meeting with CRL staff, briefing them on basic 
facts about transgender people--our lives, our bodies, and sensitive 
personal items that can raise issues during screening. We have also 
been regular participants in TSA stakeholder calls and conferences, 
together with representatives of other communities with heightened 
concerns around traveler screening.
---------------------------------------------------------------------------
    \8\ See, e.g., Statement of Peter Neffenger, Administrator, 
Transportation Security Administration, U.S. Department of Homeland 
Security, before the Senate Committee on Homeland Security and 
Governmental Affairs (June 7, 2016).
---------------------------------------------------------------------------
    However, this engagement has typically been limited to educating 
the public about current procedures, training personnel to better 
follow procedures, and addressing individual complaints about the 
conduct of TSOs. We believe most TSOs aren't interested in harassing 
travelers or invading their privacy, and many are uncomfortable with 
the invasive nature of some of their work. The staff of CRL/OTE have 
worked in earnest to engage the public and respond to complaints, but 
the agency as a whole has never adequately addressed the privacy, civil 
rights, and civil liberties problems inherent in the current screening 
model and current scanner technology.
    In 2011, we joined with other LGBT organizations in sharing some of 
the troubling traveler stories we had had in a letter to Administrator 
Pistole and urged him to make improvements to the Traveler Civil Rights 
Policy, TSO training, and screening procedures to ensure passengers are 
not subjected to increased screening based on their gender or physical 
characteristics. A response from the administrator promised efforts to 
improve TSO training, and we have offered suggestions to TSA many times 
over the years to incorporate into officer training, it has never been 
clear exactly what material made its way into new and on-going officer 
training.
    When TSA began introducing automated target recognition (ATR) into 
its scanners around this time, we hoped that a move away from human 
viewing of body scan images would be a huge improvement for travelers, 
but were immediately troubled by the use of pink and blue gender 
buttons that must be pressed for each traveler. It took years to get 
TSA to explicitly confirm what seemed obvious: The technology can't 
distinguish between human body parts and a potential threat object, and 
instead relies, in part, on assumptions about typical body contours for 
men and women.
    In 2012, TSA posted for the first time a page of information for 
transgender travelers. NCTE provided input on this page, although the 
final product did not reflect all our input and left some of the most 
frequent traveler questions unanswered.
    In 2013, we were among thousands of Americans who submitted 
comments on the agency's court-ordered rulemaking to govern the 
passenger screening program.\9\ Along with many others, we recommended 
that the agency reconsider its reliance on body scanners and pat-downs 
as primary screening methods, in favor of a mix of other methods such 
as canines, explosive trace detection, and traditional metal detectors, 
with more invasive techniques used on a random or secondary basis.\10\ 
At a minimum, we urged the agency to codify in regulations critical 
passenger protections it already promises, such as an inclusive anti-
discrimination policy, no storing or human viewing of body images, and 
no requiring passengers to lift or remove clothing to reveal sensitive 
body areas or prosthetics.
---------------------------------------------------------------------------
    \9\ Passenger Screening Using Advanced Imaging Technology, Notice 
of proposed rulemaking (NPRM), 78 Fed. Reg. 18,287 (Mar. 26, 2013).
    \10\ Comments of the National Center for Transgender Equality, Re: 
Docket No. TSA-2013-0004 Passenger Screening Using Advanced Imaging 
Technology (June 24, 2013).
---------------------------------------------------------------------------
    In 2014 and 2015, NCTE helped provide web-based training for 
several hundred passenger support specialists. Before and since, TSA 
has occasionally solicited our feedback on critical elements for TSO 
training, and on a few occasions has asked us to help identify local 
community partners to make presentations to TSOs at airports. In 2015, 
shortly after the Shadi Petosky story was widely covered by National 
media, NCTE's Executive Director Mara Keisling met with then-
Administrator Neffenger to discuss our concerns, and the agency tweeted 
about its ``on-going discussions'' on screening trans travelers.
    Even as we engaged in these discussions, NCTE sought and obtained a 
court order in 2015 to end the delay in issuing a final rule on 
passenger screening and AIT.\11\ We were disappointed when in 2016 the 
agency adopted an essentially empty rule with no real traveler 
protections.\12\ I stated publicly at that time:
---------------------------------------------------------------------------
    \11\ In re: Competitive Enterprise Institute, et al., No. 15-1224 
(D.C. Cir. Oct. 23, 2015) (ordering TSA to produce ``a schedule for the 
expeditious issuance of a final rule within a reasonable time'').
    \12\ Passenger Screening Using Advanced Imaging Technology; Final 
Rule, 81 Fed. Reg. 11,364 (Mar. 3, 2016).

``As long as TSA relies on body scanners and prison-style pat-downs as 
its primary tools, there will be a cost to travelers' privacy and 
questions about whether that cost is paying off. While there will be 
some cost to all travelers, anyone who is perceived as different or 
whose body is not typical will bear the brunt of those invasions of 
privacy. The public deserves clear rules that address the effectiveness 
and the privacy impact of practices that affect millions of Americans 
every day.''\13\
---------------------------------------------------------------------------
    \13\ NCTE, ``NCTE Sues TSA to Compel New Privacy Protections for 
Travelers,'' Jul. 20, 2015, https://transequality.org/blog/ncte-sues-
tsa-to-compel-new-privacy-protections-for-travelers.

    In 2017, we were invited to work with CRL/OTE to produce a segment 
for TSA TV on respectful screening of transgender travelers. But we 
also wrote to then-Acting Administrator Gowadia urging her to ensure 
that TSA moves beyond reliance on technologies that rely on gender 
stereotypes and can't tell a bomb from a traveler's own body.\14\
---------------------------------------------------------------------------
    \14\ Letter to Acting Administrator Huban Gowadia from NCTE 
Executive Director Mara Keisling (Mar. 14, 2017).
---------------------------------------------------------------------------
    In April 2017, as part of its TSA Cares video series, TSA released 
a short video aimed at transgender travelers.\15\ The video addressed 
some basic questions we see, such as clarifying that travelers should 
be treated based on the gender they present for screening purposes. But 
it also failed to answer other key questions travelers regularly ask 
us: Will my body parts or my undergarments cause an alarm on AIT? Is 
there anything I can do to avoid this? If I sign up for TSA PreCheck, 
will it help me avoid embarrassing pat-downs? When NCTE tweeted at TSA 
about this, the agency responded to our tweets saying they ``continue 
to push for technological improvement that will provide effective 
security w/o gender identification.''\16\
---------------------------------------------------------------------------
    \15\ TSA Cares: Screening for Transgender Passengers (Apr. 20, 
2017), https://www.youtube.com/watch?v=0SLI3Q1bIrs.
    \16\ https://twitter.com/AskTSA/status/855604175765463042.
---------------------------------------------------------------------------
    We were somewhat encouraged to see in May 2017 that, as part of a 
Broad Agency Announcement for Innovative Demonstrations, TSA invited 
vendors to propose solutions to this problem.\17\ However, we are not 
aware of whether anything concrete has come of this to date.
---------------------------------------------------------------------------
    \17\ Broad Agency Announcement HSTS04-17-R-BAA001: Innovative 
Demonstrations for Enterprise Advancement (IDEA) for Transportation 
Security (May 9, 2017), https://www.fbo.gov/
index?s=opportunity&mode=form&id=15dd92c36581f9d8b264897267b86333/.
---------------------------------------------------------------------------
    We appreciate the intent of some of the initiatives TSA has 
undertaken in recent years to improve the passenger experience, 
including the TSA Cares hotline, the use of Passenger Support 
Specialists, and the TSA PreCheck programs. We know that these programs 
have been helpful for some passengers. But they also have not addressed 
the basic concerns transgender travelers have. The travelers we hear 
from don't just want to get to their gate more quickly, or make sure 
TSOs have a heads-up to expect someone whose body may cause an alarm, 
or have a kinder, gentler conversation with TSOs about their body parts 
or undergarments--they want to get on a plane without discussing their 
private parts or having them touched by Government officials, period.
 public engagement must inform tsa policies, procedures, and technology
    TSA has more contact--very often personal, physical contact--with 
the public than just about any other Government entity. That makes 
public engagement and input absolutely critical. Travelers need to know 
what to expect at the airport. Unfortunately, TSA's public education 
efforts are often unsatisfying because the information provided to 
travelers is often opaque, and hedged about with disclaimers about SSI 
and the need for unpredictability. For years, TSA has punted on basic 
questions, like: Will my body parts or my undergarments cause an alarm 
on AIT? Is there anything I can do to avoid this? If I sign up for TSA 
PreCheck, will it help me avoid embarrassing pat-downs?
    TSA's history of engagement with transgender travelers is 
representative of its engagement with other communities and the 
traveling public broadly: The staff of TSA's CRL/OTE office really want 
and try to improve the passenger experience, but in important respects 
they are hamstrung by the flaws of the current passenger screening 
model itself, with its reliance on questionably effective body scanners 
and embarrassing pat-downs. CRL/OTE often is unable to answer the most 
important questions travelers have because they are secret or 
unpredictable, and they are often unable to respond meaningfully to 
traveler concerns because they are baked into the system. Public 
outreach, improved training, and investigating individual complaints 
are all necessary and important, and we commend CRL/OTE for doing those 
things, but they will not solve core problems. Public engagement in 
particular is of limited value if it is not used to inform policy, 
procedures, and technology acquisition.
    We understand that TSA is in the process of testing and 
demonstrating upgrades to the current AIT units. When it comes to 
innovation, we urge the agency to think big: Is upgrading or replacing 
body scanner units as the primary passenger screening tools really the 
right move for security and for passengers? Can less invasive tools 
like canines and ETD take on a bigger role, with less reliance on 
scanners and pat-downs? How can the agency minimize false alarms and 
minimize its ``touch rate''? And how can reaching out and hearing 
travelers' questions, concerns, and experiences inform TSA's approach 
on the front end, not just the back end?
    NCTE will, of course, continue to engage with TSA--both CRL/OTE 
and, where we can, relevant operational and policy making components of 
the agency--and encourage travelers to share their experiences and 
their complaints. We hope this engagement can lead to real improvements 
in the traveler experience.
    Thank you for your consideration of this important issue and for 
the opportunity to speak to you today.

    Mr. Katko. Thank you, Ms. Tobin. We appreciate you being 
here today and your testimony.
    I now recognize myself for 5 minutes of questions. The 
first question I want to talk about is the social media aspect 
of TSA. I think it is a very innovative thing you are doing, 
and you are doing a great job with it. The question I have is: 
How many passenger engagements occur via social media versus 
traditional means of inquiry, such as an e-mail or phone call? 
Does anyone have any estimate of that? It seems like there is a 
lot more from the social media standpoint. Ms. Griggs?
    Ms. Griggs. Yes, sir. Chairman, I would say that with 
847,000 followers on Instagram, we have a fantastic engagement 
with the traveling public through that means. Through our 
contact center, which is our primary portal for passengers that 
come in with questions, we get about--I would say about 70 
percent or so that come in through the phone calls and then 
another 30 percent come in with e-mail questions. But by and 
large, I would say, yes, by far the internet is the greatest 
tool, sir.
    Mr. Katko. OK. One of the things I am curious about is the 
program itself, if I am not mistaken, has only about 10 
employees right now. Is that right?
    Ms. Griggs. I believe that is close to 10, sir.
    Mr. Katko. OK, that seems like an awful lot of inquiries to 
handle for such a small amount. Has there been any discussion 
had at TSA about shifting some resources to this emerging 
positive thing that TSA is doing?
    Ms. Griggs. Sure. I think there has been some discussion 
around some of the work that we do in the TSA contact center 
and how that could also be supportive of the @asktsa 
initiatives. We are looking at possibly gaining some 
efficiencies there, as well.
    Mr. Katko. OK. I would ask that you take a look at that. 
Within the next 10 days, if someone could respond back to me, 
just letting us know what the specific plans are and what you 
might be doing in that regard, because this seems like a good 
program, and I don't want it to fall into a bureaucratic morass 
where people don't pay attention and then it suffers from it. 
So it is a good program, and I hope you guys will give it the 
amount of staffing it deserves.
    Now, I want to switch gears and talk to Ms. Fitzmaurice a 
second, if I may. The TSA PreCheck program is an innovative 
necessity, if you will, for risk-based security at airports. I 
remember when I came to Congress a few years ago, the goal was 
in a short period of time to have up to 20 million passengers 
in the TSA PreCheck, because it would allow you to focus on 
those that are more concerning and can spend more time with 
them in the non-TSA PreCheck environment.
    I know we are nowhere near that. I am still concerned, and 
if we have time later, maybe we will talk about this, why we 
are not where we should be, but those numbers are nowhere close 
yet. But one thing I have heard seen from the inspector 
general's report from December 2017 was that the PreCheck boom, 
if you will, that kind of went from 1 million up to 4 million 
or 5 million, whatever it is now, was followed by a substantial 
period of delay in processing PreCheck applications.
    I wonder if you could talk to me about that real quick and 
tell me what TSA is doing to try and address that problem.
    Ms. Fitzmaurice. Yes, sir. Thank you for your question. Our 
goal is to continue to grow the program, as well as the number 
of travelers that are receiving the PreCheck based on their 
enrollment every day. The program did have a very significant 
spike in enrollments, and what I can share with you is that 
today we are in a very good place as it relates to the time 
frame it takes. It is on average less than a week, if you 
enroll, to get your response for being in PreCheck.
    So I think the issues that we had in the past have been 
resolved additionally. That office has been able to supplement 
bringing on new personnel to help with the adjudication of 
applications.
    Mr. Katko. Is there something in place to deal with 
potential future spikes so we don't have this happen again?
    Ms. Fitzmaurice. Yes, so my understanding is that they have 
through the additional resources been able to plan for 
additional spikes. They have also put into place relationships 
and engagements to be able to surge if needed.
    Mr. Katko. Very good. Now, sticking with PreCheck, I do an 
awful lot of traveling, and I am in PreCheck. It seems more and 
more lately that people you hear in lines, you hear the 
grumblings that people don't think PreCheck is worth it.
    I was at an airport this weekend in Miami and I think there 
was probably five to seven times more people in the PreCheck 
lane than in the non-PreCheck lane. So I want you to address 
that, as well, because it seemed like people are going through 
the non-PreCheck lane quicker than they were the PreCheck lane, 
No. 1, but, No. 2, more importantly, we made it a big priority 
to get TSA to stop managed inclusion. Managed inclusion is 
taking people out of the regular lanes and putting them into 
PreCheck when they don't have a PreCheck background.
    It still seems to be the case that that happens at times 
and to varying degrees. That not only is a security risk, which 
is probably something we need to talk about in another 
setting--I mean another hearing, but it is something that 
people from a product standpoint think is not right. I am being 
one of them, but an awful lot of people.
    So from an image standpoint, as well as a safety 
standpoint, it is not good. We have been banging TSA over the 
head since I have been in Congress the last 3 years to not do 
this. They still do it. I wonder if you could explain why they 
are doing it and why you think that the public isn't going to 
get upset about it. Or why do you care?
    Ms. Fitzmaurice. Yes, thank you, Chairman. So we have ended 
the managed inclusion program, as you mentioned. We also, you 
know, are----
    Mr. Katko. I am going to interrupt you, but are you just 
calling it something different now so we have to follow that, 
or what?
    Ms. Fitzmaurice. No, we are not doing that.
    Mr. Katko. OK.
    Ms. Fitzmaurice. So what I can share with you is that we 
have taken steps to reduce the number of individuals who would 
be getting PreCheck that are not enrolled, and that has been 
subsequent or a continued drawdown over really the last year.
    When the program first rolled out, one of the populations 
that we originally targeted were high frequent flyers. I can 
tell you that that practice ended last year, so those 
individuals are no longer receiving PreCheck just based on 
their frequent flyer status.
    Relative to your question on long lines--and I realize 
sometimes it can be the optics of that--what I can share with 
you, though, is that across the system, people who are in 
PreCheck are waiting on average about a minute-and-a-half to 2 
minutes. Over about 94 percent of the system for PreCheck 
travelers are waiting under 5 minutes. So while there may be 
people in those lines, those lines are moving quickly.
    Mr. Katko. OK. Last, and I am indulging myself, because I 
will give my colleagues the same courtesy, I was in an airport 
in Fort Myers, and they had nothing but PreCheck line. In the 
PreCheck line, they had one dog, and people were going by that 
dog at a very fast pace and getting into line, and the line was 
backed up. They did it as a way of reduced congestion.
    While it is important that we have the dog sniff on every 
single individual, they are still not in PreCheck. They still 
don't have the background on these individuals. They still 
don't have the selectee information, if there is any. They 
still could be letting people through that line that may be 
otherwise not--shouldn't be going through that line.
    The whole idea behind PreCheck is to know your traveler. 
You don't know the travelers. You are just hoping that the dog 
catches a whiff of something if there is a concern. So that 
coupled with your comment that you are taking steps to reduce 
non-PreCheck people going through PreCheck lanes is not what we 
want to hear.
    What we want to hear is that people who are not in PreCheck 
are not going through PreCheck lane, period. That was the whole 
idea behind ending managed inclusion. So I feel like in a way 
it is a bit of a shell game going on. We are going to have more 
hearings on--I think we are going to have to have another 
hearing on PreCheck alone to examine this more in depth.
    But I just want to let you know that to take back to the 
agency that we are still very concerned about this and it seems 
like perhaps TSA is not getting the message that PreCheck means 
PreCheck and non-PreCheck means non-PreCheck. That is it. It 
shouldn't be used as a way to manage traffic. That is another 
issue, and we can help you with that, too. But PreCheck is 
PreCheck, OK? We want you guys to understand that, and it is 
something we are going to have to pursue further.
    I now recognize my colleague from New Jersey, Ms. Watson 
Coleman, for questions.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I want to 
associate myself with your concerns with respect to PreCheck 
and individuals being taken through the line who haven't 
engaged in the whole vetting process for PreCheck.
    I guess I want to ask this question first of Ms. Tobin. 
Thank you all for being here. Ms. Tobin, I am troubled by some 
of the discussion that you have had about the passengers that 
are transgender passengers in particular that experience when 
they are going through screening. I get the impression that you 
believe that there have been some improvement in the way TSA is 
dealing with these issues as a result of having collaborations 
and feedback from you and your organization. Do you agree?
    Ms. Tobin. Well, Ms. Ranking Member, we certainly have seen 
some improvements on the human element of those interactions. 
We still pretty regularly hear of challenges--some of the 
things, you know, I mentioned in my written testimony are 
things that I think fellow witnesses would agree shouldn't be 
happening and those things still do happen.
    We have really seen improvements. We think that there is 
probably more that we could do if we had the chance to 
collaborate with their training academy, for example. But I 
think the major concern that we have is that there are some 
things that can't be addressed through the human element, that 
are sort-of baked into the current screening model, that there 
is no amount of professionalism on the part of TSOs, which most 
of the time we do see, that can make up for the fact that some 
passengers are having repeated alarms in sensitive areas of the 
body that have to be cleared in a process that is sort of 
inherently intrusive.
    Mrs. Watson Coleman. So I kind-of really want to stick with 
this issue a little bit. I am thinking that the centralized 
training that takes place in Georgia now kind-of provides these 
officers who are going to be on the front lines a bit more 
information and a bit more tools on how to deal with this. So I 
want to get to that in a second.
    But I want to ask about this AIT that is gender-neutral, 
because I believe that that is one of the things that your 
organization says is vitally important at these checkpoints and 
that will reduce the degree to which individuals are treated in 
a way that intrudes upon their civil liberties and their 
privacy.
    I am wondering, are we really talking about AITs that are 
gender-neutral? If so, do you have any idea how far away we are 
from having them actually at these checkpoints? I guess Ms. 
Fitzmaurice or Ms. Griggs? I don't know which one of you wants 
to respond to that.
    Ms. Griggs. Thank you, Ranking Member. I would say that 
right now we are--as a result of the broad agency announcement, 
we have had several submissions. Through those, we are actually 
currently demonstrating an on-person screening solution that 
would eliminate any gender-specific alarms and kind-of be able 
to make that distinction, if you will. We are also working with 
vendors who have solutions for on-person screening that is 
gender-agnostic.
    So I think I would say that right now we are in the kind-of 
demonstration phase of it, and certainly continue to work 
forward to bring that as quickly as we can.
    Mrs. Watson Coleman. So all the vendors that you are 
dealing with understand that you are looking for gender-neutral 
technology. Do you have any idea how far away we are from 
seeing some of this employed in the airports?
    Ms. Griggs. I do not at this time. I do not.
    Mrs. Watson Coleman. That is something that I really would 
like to know, because I think that that is a really important 
issue and consideration that we need to look at in sort-of an 
expedited way.
    Ms. Fitzmaurice, you say the new hires are trained in the 
Georgia facility. What do you do about the current hires who 
haven't had the benefit of this new academy to kind-of bring 
them to snuff so that they are operating under sort-of the 
standard--under the standards and rules and regulations and 
procedures and policies and, you know, protocols?
    Ms. Fitzmaurice. Thank you. So all of our officers, whether 
they were trained locally at their airport and have been part 
of the TSA work force for a number of years, or newer officers 
that have gone through the academy have received really the 
same training. So if we have, you know, new procedures or 
changed procedures, we will obviously implement that for the 
training that is occurring at the academy for our new officers 
and then what we will also do is some field-based training for 
our existing officers.
    As I mentioned in my oral statement, we have a lot of 
different scenarios that we train our officers on down at the 
academy for a variety of types of situations that they may 
experience and how best to handle those situations, the best 
advisements to give passengers. That is one of the critical 
things that we find is really having that engagement and strong 
advisements with the passengers so that they know what to 
expect is really critical for us to be successful in executing 
those.
    Mrs. Watson Coleman. Thank you. I have a number of other 
questions. I don't know if you want to go a second round.
    Mr. Katko. We can do a second round.
    Mrs. Watson Coleman. OK. I yield back.
    Mr. Katko. The Chair now recognizes the gentleman from 
Louisiana, Mr. Higgins, for 5 minutes of questioning.
    Mr. Higgins. Thank you, Mr. Chairman, members of the panel. 
Thank you for appearing today. Ms. Griggs, I have recently 
become a frequent flyer due to my Congressional service and as 
a police officer for many, many years prior to my current 
service to my country.
    I certainly recognize the struggles and frustrations of 
front-line officers and first responders. I have really come to 
know personally the men and women that serve as TSOs, 
especially in my local airport in Louisiana. So I have come to 
recognize the human element that they deal with, long lines, 
staff shortages, equipment that doesn't seem to be cooperating 
very well, et cetera, travelers that don't quite get it on how 
to arrange their bags on the screening devices.
    I have seen the frustration that they face. So I am 
wondering, how is morale? Can you give me a general answer? How 
is morale amongst your TSOs?
    Ms. Griggs. Thank you for your question. I would say that 
overall our TSOs have a great sense of pride in what it is that 
they do for TSA.
    Mr. Higgins. No doubt.
    Ms. Griggs. I think that that shows day in and day out in 
the work that they do to accommodate all of our passengers and 
to treat everybody fairly with dignity and respect. I would 
certainly say that those struggles do lend themselves 
oftentimes to having officers who get frustrated. But having 
spent over 12 years or so in airports and in the field, I can 
tell you that our leadership cadre I think has stepped up to 
the plate and really been there in terms of engaging our 
officers to say, if you have an issue or concern, let's resolve 
it here at the lowest possible level and let's work with our 
employee advisory groups, and let's hear what the concerns are 
and give the officers a voice, if you will, to come forward and 
say that this is why I am unhappy or this is what is happening.
    I think that that has boded well. I think that many of them 
feel as though they have a voice and that our leadership has 
been supportive of that.
    Mr. Higgins. That led to my next question. Thank you for 
that encouraging answer. Do your TSOs have--is there a 
mechanism where TSA can hear from the boots on the ground of 
common-sense answers to everyday problems in the lines that 
would make the lines more efficient and effective and 
reflective of the very crucial security screening that must 
take place, while at the same time recognizing the needs of 
travelers and the needs of individual Americans like Ms. Tobin 
is representing today, who certainly have rights that need to 
be addressed?
    Do you have a mechanism for your TSOs to regularly 
communicate with supervisors to address boots-on-the-ground 
solutions to the challenges that they face?
    Ms. Griggs. So I think I would defer that to my colleague, 
Ms. Fitzmaurice.
    Mr. Higgins. Ms. Fitzmaurice?
    Ms. Griggs. Yes.
    Ms. Fitzmaurice. OK. Thank you. So I think we have a 
variety of ways our officers can communicate. One is directly 
with their supervisors in routine engagements on performance 
and how the operation is going. Also, our Federal security 
directors and the management staff at the airports are having 
routine town halls where they can solicit input.
    I personally have visited a number of airports and have 
received input from our officers on things that we take back, 
but we also have some systematic ways with an idea factory, 
where officers can put in----
    Mr. Higgins. Can they communicate on-line and submit like 
anonymous suggestions?
    Ms. Fitzmaurice. They can. They can--it is not anonymous, 
but they can submit suggestions. Those are kind of crowd-
sourced, in terms of getting feedback on them. But----
    Mr. Higgins. All right, that is encouraging. I would like 
to jump to your academy. Is there annual recertification 
training for your TSOs that have been through certification 
training? If so, do your existing officers that were originally 
trained at airports across the country, do you send them to the 
academy in Georgia?
    Ms. Fitzmaurice. Sir, we have a requirement for annual 
proficiency reviews for all of our officers to demonstrate that 
they remain proficient on all of our procedures. You know, for 
officers who have been on-board and perhaps had not gone to the 
academy initially, we are not sending them back for the basic 
training, but there are opportunities for some of the advanced 
training for them to go to the academy for other reasons.
    Mr. Higgins. But training changes. It is an on-going 
process. There is some method for recertification of your 
current TSOs?
    Ms. Fitzmaurice. Yes, sir. So depending on the nature of 
the changes that may be implemented, we would look at different 
ways to deliver that training. It could be through on-line 
training. It could be through in-person training there at the 
airport.
    Mr. Higgins. All right. Quickly, is--Ms. Griggs, is TSA 
looking to expand the roles of PreCheck? Is that a general goal 
for TSA, to expand PreCheck?
    Ms. Griggs. I think I would defer to Ms. Fitzmaurice on 
that question.
    Mr. Higgins. Is that a general goal?
    Ms. Fitzmaurice. So I think we absolutely want to grow the 
number of travelers in PreCheck.
    Mr. Higgins. OK, that being a yes, do you offer group 
rates?
    Ms. Fitzmaurice. We currently do not offer group rates.
    Mr. Higgins. It might be something to consider, because the 
problem that Ms. Tobin's constituency is encountering is due to 
advanced imaging technologies. It occurs to me that this could 
be a win for everybody. You could grow the rolls of TSA by 
offering group rates across the country and members of Ms. 
Tobin's organization could sign up for PreCheck, go through the 
background clearance, and they wouldn't have to go through AIT, 
go through a metal detector through PreCheck that would 
essentially solve that problem.
    With that, Mr. Chairman, I thank you for allowing me to go 
a little bit over my time. I yield back.
    Mr. Katko. Well, what is good for the goose is good for the 
gander. I do it all the time, so I have to indulge my 
colleagues, as well. That was an excellent point you made.
    We are going to do a second round of questions. Ms. 
Fitzmaurice, since you are kind-of the tip of the spear with 
respect to risk-based--the programs at TSA, I do want to go in 
a little further with you about the PreCheck. This is an issue 
that is preceded your time in this position, but it is 
something that is troubling, because we take a step back with 
PreCheck. The idea of PreCheck is people sign up, we do 
background checks, do more in-depth analysis of them, and we 
make a determination that if you are eligible for the PreCheck 
program, at least in its current form, not in its original 
form, you are eligible for the PreCheck program, there is 
vetting that goes on, there is recurrent vetting that goes on, 
and you have an idea of whether or not the individual--much 
better idea whether that individual could be a problem.
    When you take them out of the other lanes and put them into 
this lane, from a risk-based issue, it is not good. From a 
public relations issue, it is terrible. So you want to grow 
this program. When you want to grow this program, I want to 
know what you are anticipating with the airports, No. 1, as far 
as the physical layout for the PreCheck lanes versus a non-
PreCheck lanes, No. 1. And No. 2, and far more importantly, how 
can you justify taking people out of regular lanes and put them 
in PreCheck, when you don't have the background of them?
    Ms. Fitzmaurice. Yes, sir, Mr. Chairman. So we are, as I 
said, trying to grow the number of PreCheck and draw down the 
individuals who are going through just PreCheck that have not 
enrolled. That said, we also have, you know, additional 
screening measures that we can apply for use of canines as an 
example, and we believe that that is one of the more effective 
screening methods.
    So as we look at how to maximize the number of individuals 
who are screened by a canine, we have been able to re-design 
some of the cues to do that. Just--I guess it was last week--I 
was traveling out of Washington Dulles, had the opportunity to 
go through that. I am an enrolled PreCheck member, and I found 
my experience to be just as efficient as it typically would be 
going through a dedicated PreCheck lane.
    Mr. Katko. But efficiency is one thing, but security is 
another. They are not always mutually beneficial to each other. 
So I understand moving people is a priority, and I understand 
you have to have the constant balance between service and 
security.
    But what got you into a lot of the TSO problems in the past 
as far as extraordinarily poor rating on the undercover 
operations, testing the security vulnerabilities at the 
checkpoints, there is a lot of pressure on TSOs to move people 
through. It seems like that is just heightened with PreCheck.
    PreCheck was supposed to alleviate lines by getting people 
in there that--only people in there that should be. We have 
found with managed inclusion that they were usurping that. Now 
we are finding that it is, again--I am not hearing from you 
that there is a goal to make sure that only PreCheck people go 
through PreCheck.
    So at a risk of sounding redundant, I want to make sure I 
underscore the point that that is not the goal of the 
committee. The goal of the committee is to have only people in 
PreCheck going through PreCheck. It seems like you are trying 
to find ways to nip around the edge of that and denigrate the 
amount of risk-based security you are doing.
    Yes, having a dog go through is great, but let's not 
forget, with the emerging technologies from the bad guys, they 
are not always going to find everything that we are looking 
for. So we better know with a better sense of precision who the 
people are that are going through PreCheck, and we can only do 
that if we are in PreCheck.
    So going forward, I think we are going to need to have a 
discussion about what to do with this issue, because it is not 
going to stand for us in the committee here. We simply are not 
going to tolerate it. It is 3 years now down the road, and a 
lot of people are going through PreCheck still aren't involved 
in PreCheck. That is not good. You cannot justify it to me 
otherwise.
    With that, I yield to my colleague, Ms. Watson Coleman.
    Mrs. Watson Coleman. Thank you. First of all, Mr. Chairman, 
I want to request to enter into the record the testimony from 
the National Disability Rights Guide, the Guide Dog Foundation, 
and the Electronic Privacy Information Center.
    Mr. Katko. Without objection, so ordered.
    [The information follows:]
    Statement of Ian Watlington, National Disability Rights Network
                           February 27, 2018
    I have been a professional advocate for people with disabilities 
for more than 15 years. I have worked in the areas of educational 
policy, mental health policy, as a champion for civil rights for people 
with disabilities, and as a mentor for young people with disabilities. 
To me, advocacy is more than a job; it is personal. I have cerebral 
palsy and use a wheelchair.
    For the last 6 years, I have been a senior disability advocacy 
specialist for the National Disability Rights Network, providing 
training and technical assistance on a wide range of issues to our 
members.
    NDRN is the non-profit membership organization for the Federally-
mandated Protection and Advocacy (P&A) and Client Assistance Program 
(CAP) systems for individuals with disabilities. The P&A and CAP 
systems were established by the United States Congress to protect the 
rights of people with disabilities and their families through legal 
support, advocacy, referral, and education. P&As and CAPs are in all 50 
States, the District of Columbia, Puerto Rico, and the U.S. Territories 
(American Samoa, Guam, Northern Mariana Islands, and the U.S. Virgin 
Islands), and there is a P&A and CAP affiliated with the Native 
American Consortium which includes the Hopi, Navajo, and San Juan 
Southern Paiute Nations in the Four Corners region of the Southwest. 
Collectively, the P&A and CAP Network is the largest provider of 
legally-based advocacy services to people with disabilities in the 
United States.
    About 5 years ago, the Transportation Security Administration (TSA) 
asked NDRN to collaborate with them on a new program they were 
launching: The Passenger Support Specialists program (PSS). TSA 
launched this effort in order to make the traveling experience for 
people with disabilities less confusing, less rattling, and in the end, 
not so cumbersome.
    The idea behind PSS is to train officers in disability etiquette 
and the applicable laws so they are able to respond to issues that come 
up at the airline security checkpoint. If TSA officers encounter a 
traveler with a disability, the PSS tries to ensure at least one person 
can handle the unique needs and circumstances with more expertise and 
care.
    I had the privilege of conducting several virtual trainings that 
address disability etiquette and different ways to provide tailored 
customer service to people with disabilities. In some of these 
webinars, officers were able to ask me specific questions about various 
disabilities. In addition, I, along with TSA, provided a safe, 
nonjudgmental virtual platform on which officers could express their 
misgivings, fears, and/or curiosities.
    But more needs to be done.
    I am a frequent traveler. I can attest to the additional energy it 
takes for people with disabilities to fly. There are obstacles we must 
navigate from our front doors all the way to the plane gate. One of 
those obstacles continues to be airport security checkpoints.
    Only through a continued emphasis on a higher-trained workforce 
with more tools to do their work will we remove this barrier. The PSS 
is an admirable effort to ensure people with disabilities are treated 
with respect and dignity.
    I am more than happy to provide further information and/or answer 
questions that Members of committee and its staff may have.
                                 ______
                                 
                        Letter From Guidedog.org
                                 February 26, 2018.
Rep. Bennie G. Thompson (D-MS), Ranking Member,
Committee on Homeland Security, U.S. House of Representatives, 
        Washington, DC 20515.
Regarding: TSA Public Engagement and Social Media Efforts

    The Guide Dog Foundation and America's VetDogs are proud to be 
community partners with the Transportation Security Administration and 
part of its Multicultural and Disability Coalition. We have assisted 
TSA's Disability Branch with national presentations about service 
animals and provided specific training webinars and live presentations 
for TSA staff. We have a standing arrangement to train front-line 
security officers at several airports within the New York metropolitan 
area, as well as Nation-wide through our staff and graduates. Although 
our focus is service animals, we also provide general disability 
etiquette information.
    Our clients have a wide variety of disabilities. As part of our 
training and support, we offer information from TSA about screening 
procedures, what to expect, and how to negotiate when issues arise. It 
has been our experience that most TSA security officers are well-versed 
regarding disability etiquette. We make use of the materials from the 
Disability Branch, monthly ``What to Expect'' bulletins, and any 
special announcements. We also advise other organizations on how to 
work with TSA.
    The issues we most often hear about from our clients involve 
security officers who misunderstand screening procedures or who have 
anxiety around service animals. These are on-going training issues. We 
are pleased to say that the number of these reports has gone down over 
the years.
    The TSA CARES service has been a very helpful part of our education 
for clients. We do suggest that anyone who needs information about 
screening, medical devices, etc., contact TSA CARES. We routinely 
provide the braille-embossed business cards from the Disability Branch. 
We also advise our clients about the TSA Pre-Check program.
    Unfortunately, we have seen a decline in the Passenger Support 
Specialist service over the past few years. It was literally the best-
kept secret at TSA and among the airlines. However, once the program 
began to be publicized and the high level of assistance people could 
experience became known--generally far superior to standard airport--or 
airline-provided assistance--the PSS service became more problematic. 
Often there were not enough trained PSS staff to meet the needs, even 
with advance scheduling. We have, therefore, stopped using this service 
for our clients who come to and leave our facility for training. We 
advise them that the service is available, but we no longer interact 
directly with TSA regarding their trips.
    At one time, TSA had specialized assistance services for U.S. 
military veterans. Those services varied, and there was a gap between 
services provided to pre- and post-9/11 veterans. As we serve veterans 
from all eras and conflicts, we no longer take advantage of these 
services. If these services cannot be provided equally for veterans, we 
do not feel they are appropriate. Also, subcontracting the service has 
made it even more confusing for travelers as to what they can expect 
when requesting assistance.
    We have had some reports of distractions around TSA canine teams, 
but generally, TSA has been very responsive to our advice that handlers 
make their presence known if they see another animal, regardless of 
whether it is a service animal, in the screening or other area. 
Generally, the handlers are good about following this advice.
    Additional on-going training with regards to TSA screening when 
interacting with canine teams is necessary, but we feel TSA is 
receptive to our discussion points.
    Overall, we are very pleased with the responsiveness of TSA's local 
and National staff to concerns, complaints, and situations with our 
clients. It is important to participate in on-going staff training so 
as to support TSA in maintaining a high level of disability awareness 
during its screening and other activities.
    Please do not hesitate to contact the Guide Dog Foundation and 
America's VetDogs should this committee require any additional 
information.
                                            Jenine Stanley,
                                    Consumer Relations Coordinator.
                                 ______
                                 
         Letter From the Electronic Privacy Information Center
                                 February 26, 2018.
The Honorable John Katko, Chairman,
The Honorable Bonnie Watson Coleman, Ranking Member,
U.S. House Committee on Homeland Security, Subcommittee on 
        Transportation and Protective Security, H2-176 Ford House 
        Office Building Washington, DC 20515
RE: Hearing on ``The Public Face of TSA: Examining the Agency's 
Outreach and Traveler Engagement Efforts''

    Dear Chairman Katko and Ranking Member Coleman: We write to you 
regarding the hearing on ``The Public Face of TSA: Examining the 
Agency's Outreach and Traveler Engagement Efforts.''\1\ We welcome your 
continued leadership on improvements that can be made at the TSA and 
look forward to opportunities to work with you and your staff.
---------------------------------------------------------------------------
    \1\ The Public Face of TSA: Examining the Agency's Outreach and 
Traveler Engagement Efforts, 115th Cong. (2018), H. Comm. on Homeland 
Security, Subcomm. on Transportation and Protective Security, https://
homeland.house.gov/hearing/public-face-tsa-examining-agencys-outreach-
traveler-engagement-efforts/ (February 27, 2018).
---------------------------------------------------------------------------
    EPIC is a public interest research center established in 1994 to 
focus public attention on emerging privacy and civil liberties 
issues.\2\ Among our most significant undertakings was the litigation 
that led to the removal the backscatter X-ray devices from U.S. 
airports. Those devices were ineffective, invasive, and unlawful. In 
EPIC v. DHS, 653 F.3d 1 (D.C. Cir. 2011), the D.C. Circuit Court of 
Appeals held that the agency failed to conduct a public rulemaking as 
required by law and must also ensure that passengers are given the 
opportunity to opt-out if they so choose. But new privacy issues have 
arisen with the deployment of facial recognition technology at U.S. 
airports. An Executive Order recommends that agencies ``expedite the 
completion and implementation of biometric entry exit tracking 
system,''\3\ and Customs and Border Protection (``CBP'') has deployed 
facial recognition technology at several U.S. airports.\4\ Facial 
recognition poses significant threats to privacy and civil liberties. 
It can be done covertly, remotely, and on a mass scale. Additionally, 
there are a lack of well-defined Federal regulations controlling the 
collection, use, dissemination, and retention of biometric identifiers. 
Ubiquitous and near effortless identification eliminates individual's 
ability to control their identities and poses a specific risk to the 
First Amendment rights of free association and free expression.
---------------------------------------------------------------------------
    \2\ See About EPIC, EPIC.org, https://epic.org/epic/about.html.
    \3\ Exec. Order No. 13,780  8.
    \4\ U.S. Customs and Border Protection, CBP Deploys Facial 
Recognition Biometric Technology at 1 TSA Checkpoint at JFK Airport 
(Oct. 11, 2017), https://www.cbp.gov/newsroom/national-media-release/
cbp-deploys-facial-recognition-biometric-technology-1-tsa-checkpoint.
---------------------------------------------------------------------------
    Transparency about these biometric surveillance programs is 
essential, particularly because their accuracy is questionable. In 
December 2017, because of a Freedom of Information Act lawsuit pursued 
by EPIC, we obtained a report from Customs and Border Protection, which 
evaluated iris imaging and facial recognition scans for border control. 
The ``Southwest Border Pedestrian Field Test'' reveals that the agency 
program does not perform operational matching at a ``satisfactory'' 
level.\5\ In a related FOIA lawsuit, EPIC previously obtained documents 
from the Federal Bureau of Investigation concerning the Next Generation 
Identification database which contains facial scans, fingerprints, and 
other biometrics of millions of Americans.\6\ The documents obtained by 
EPIC revealed that biometric identification is often inaccurate.\7\
---------------------------------------------------------------------------
    \5\ U.S. Customs and Border Protection, Southern Border Pedestrian 
Field Test Summary Report, https://epic.org/foia/dhs/cbp/biometric-
entry-exit/Southern-Border-Pedestrian-Field-Test-Report.pdf (December 
2016).
    \6\ EPIC v. FBI--Next Generation Identification, EPIC, https://
epic.org/foia/fbi/ngi/.
    \7\ DEPT. OF JUSTICE, FEDERAL BUREAU OF INVESTIGATION, NEXT 
GENERATION IDENTIFICATION (NGI) SYSTEM REQUIREMENTS DOCUMENT VERSION 
4.4 at 244 (Oct. 1, 2010), https://epic.org/foia/fbi/ngi/NGI-System-
Requiremets.pdf.
---------------------------------------------------------------------------
    The use of facial recognition at the border has real consequences 
for U.S. citizens as well as non-U.S. citizens. All people entering the 
United States, including U.S. passport holders, could be subject to 
this new screening technique. EPIC has filed a Freedom of Information 
Act lawsuit to obtain documents to determine if there are proper 
privacy safeguards in place for the collection of biometric information 
at U.S. airports.\8\
---------------------------------------------------------------------------
    \8\ EPIC v. CBP (Biometric Entry/Exit Program), EPIC, https://
epic.org/foia/dhs/cbp/biometric-entry-exit/.
---------------------------------------------------------------------------
    There is also a new study from the MIT Media Lab which found that 
facial recognition is less accurate for persons of color. The MIT study 
found that the error rate in face recognition software for dark-skinned 
females was 20.8 percent--34.7 percent, while the error rate for light-
skinned males was 0.0 percent--0.3 percent.\9\ As the New York Times 
explained, ``[t]hese disparate results, calculated by Joy Buolamwini, a 
researcher at the M.I.T. Media Lab, show how some of the biases in the 
real world can seep into artificial intelligence, the computer systems 
that inform facial recognition.''\10\ If it is correct that that facial 
recognition as a form of identification discriminates against persons 
of color in ways that other forms of identification do not, there is a 
substantial civil rights concern that the committee should investigate.
---------------------------------------------------------------------------
    \9\ Joy Buolamwini and Timnit Gebru, Gender Shades: Intersectional 
Accuracy Disparities in Commercial Gender Classification, Proceedings 
of Machine Learning Research (2018) at 11, available at http://
proceedings.mlr.press/v81/buolamwini18a/buolamwini18a.pdf.
    \10\ Steve Lohr, Facial Recognition Is Accurate, if You're a White 
Guy, New York Times, Feb. 9, 2018, https://www.nytimes.com/2018/02/09/
technology/facial-recognition-race-artificial-intelligence.html.
---------------------------------------------------------------------------
    The involvement of private companies raises additional concerns. 
CBP has enlisted airlines such as JetBlue and Delta to implement face 
recognition technology at various points in airports.\11\ JetBlue is 
running a self-boarding program using facial recognition in lieu of 
checking boarding passes. Delta aims to use facial recognition as part 
of baggage drop off.\12\ It is unclear whether access to biometric 
identifiers by JetBlue and Delta will lead to non-security uses of 
biometric identifiers.
---------------------------------------------------------------------------
    \11\ Asma Khalid, Facial Recognition May Boost Airport Security But 
Raises Privacy Worries, NPR, June 26, 2017, https://www.npr.org/
sections/alltechconsidered/2017/06/26/534131967/facial-recognition-may-
boost-airport-security-but-raises-privacy-worries.
    \12\ Ben Mutzabaugh, Delta to test facial-recognition tech on new 
self-service bag drop, USA TODAY, May 15, 2017, https://
www.usatoday.com/story/travel/flights/todayinthesky/2017/05/15/delta-
test-facial-recognition-tech-new-self-service-bag-drops/101703956/.
---------------------------------------------------------------------------
    The airlines are selling the use of facial recognition as a 
convenience feature, but it's part of a larger effort by the Government 
to implement a biometric surveillance program. And, it's not clear if 
passengers realize what they are signing up for. Even if some of the 
passengers are aware, there is still a lack of information about the 
Government's biometric entry-exit program.
    The CBP and the TSA now plan deploy facial recognition technology 
at TSA checkpoints--further expanding the use of a privacy-invasive 
technology without regulations in place to provide proper protections.
    Acting Assistant Administrator for Civil Rights and Liberties 
Christine Griggs should be asked the following questions:
  <bullet> How exactly do these biometric tracking systems work? Are 
        they accurate?
  <bullet> How does facial recognition technology at TSA checkpoints 
        fit into the biometric tracking system?
  <bullet> Are there future plans for the increase use of facial 
        recognition or other biometric identifiers by the TSA?
  <bullet> Did CBP share the findings of the reports associated with 
        the various Biometric Entry/Exit pilots? And if so, could you 
        detail what the findings were?
  <bullet> How will TSA ensure that the collection and use of biometric 
        data will not expand beyond the original purpose?
  <bullet> What restrictions on the use of biometric identifiers by 
        private companies have been established?
    We ask that this letter be entered in the hearing record. EPIC 
looks forward to working with the subcommittee on these issues of vital 
importance to the American public.
            Sincerely,
                                            Marc Rotenberg,
                                                    EPIC President.
                                      Caitriona Fitzgerald,
                                              EPIC Policy Director.
                                             Jeramie Scott,
                                    EPIC National Security Counsel.
                                          Christine Bannan,
                                                EPIC Policy Fellow.

    Mrs. Watson Coleman. Thank you very much. This is to TSA. 
There is a concern about individuals who have experienced 
sexual trauma or some other impediment to being able to be 
touched, to be patted down. How do you deal with that? What is 
the protocol to deal with that? How do you know?
    Ms. Fitzmaurice. So we have a lot of information that we 
put out on our website, as well as with our TSA Cares program, 
where individuals can reach out and let us know in advance. We 
have officers that are trained to support these passengers who 
may have some sort of need or assistance.
    So our officers are trained to do that. You know, I 
recognize that there are times where we do need to touch 
individuals for our security mission. So really what we have 
been focused on is being as transparent as possible with the 
information that we put out there, as well as I mentioned 
earlier the advisements that we give. So it is really important 
for us to advise passengers not only in advance, but also while 
we are engaging with them and providing a situation so that 
they are comfortable. If that is if they want to have the 
screening done in a private screening room, we can do that, as 
well.
    Mrs. Watson Coleman. OK. So my concern should not be a 
concern that someone who, you know, claims to not be touchable 
because of the trauma that he or she has experienced, something 
happens to make sure that that is legitimate and we are not 
just dealing with someone using that as an excuse?
    Ms. Fitzmaurice. Well, we wouldn't question that type of 
information from an individual. But if they do express that 
they have some concern, I think we will definitely work with 
them to accommodate and understand what their concerns are. No 
one is exempt from the screening requirement. So--but really, 
it is about how we work with them to accommodate them.
    Mrs. Watson Coleman. So I know TSA has equal employment 
opportunity programs and affirmative action programs--or 
programs of that nature. I am wondering if you have any 
specific program that addresses the employment of transgenders 
and whether or not you are employing transgenders as TSOs.
    To that extent, after you answer that question, I would 
like to know from Ms. Tobin, have you ever encountered any? 
Have they ever expressed any concerns about upward mobility 
opportunities? So I will leave it to either Ms. Griggs and Ms. 
Fitzmaurice first.
    Ms. Griggs. Thank you for your question. Yes, so we--to the 
extent that our transgender employees have informed us that 
they are transgender, yes, we do have transgender employees on 
our work force. To your--if you could just repeat your second 
question, ma'am. I forgot your second question.
    Mrs. Watson Coleman. It had to do with whether or not there 
are any TSOs.
    Ms. Griggs. Yes, there are transgender TSOs, yes, ma'am.
    Mrs. Watson Coleman. And if there have been sort of any 
impediments to their upward mobility. Because we have heard 
from females that there may be some impediment to upward 
mobility at the agency, but then I see the two of you here 
representing the agency. But anyway----
    Ms. Griggs. So I would say that, as it stands right now, we 
are working on a written policy as it relates to our 
transgender employees and trying to find the right balance 
between, obviously, civil rights and liberties of the 
employees, as well as for the traveling public.
    The other thing I would add is that, you know, each 
situation we take individually. I think that the airports and 
the field operations by and large have been working very 
closely with any transgender employees through any transition 
and working with them to ensure that they are comfortable, that 
the work force is comfortable, you know, in order to ensure a 
smoother transition.
    Mrs. Watson Coleman. Thank you. Ms. Tobin.
    Ms. Tobin. We have heard in the past--we have seen cases--
and in fact, TSA has had to settle EEO complaints of 
transgender TSOs who have faced harassment or work restrictions 
or other forms of discrimination. Sometimes it is a matter of 
either--of management decisions at the airport or elsewhere. 
That is not something that we have heard in the last few years.
    Mrs. Watson Coleman. Good.
    Ms. Tobin. We certainly look forward to the agency 
clarifying its EEO policy. It lags behind much of the rest of 
the Government in that respect. We certainly see transgender 
officers in law enforcement and security positions around the 
country successfully. There is no, you know, special concerns 
for them interacting with the public, as long as they can do 
their jobs like everyone else.
    Mrs. Watson Coleman. Thank you. One last general question. 
I know that you have two coalitions that you deal with to get 
feedback and that you inform of the policies and procedures. My 
question to you is, as you are developing these policies and 
procedures and considering these policies, do you seek feedback 
from your coalition partners in that process as opposed to at 
the end of it informing them so that they can therefore educate 
their communities?
    Ms. Griggs. Thank you for your question. Yes, we absolutely 
do. I think as part of our regular and consistent engagement 
with the coalitions, we do bring forward any proposed policies 
or changes that we are considering and absolutely allow for 
their input on the front end of things.
    I think it is also important to inform them of the reasons 
why we are recommending such policies or, you know, what is the 
reason behind things, so we do involve them in the beginning.
    Mrs. Watson Coleman. Thank you. Thank you very much for 
your responses. I yield back.
    Mr. Katko. Thank you. I would like to thank all three of 
you for your testimony today. It was very well done, very 
thoughtful and helpful.
    Members of the committee may have some additional questions 
for the witnesses. We will ask you to respond to these in 
writing. As you know, I made a request for a response in 
writing within 10 days, and we will follow up with a letter 
today, so you know exactly what we are looking at. I appreciate 
it if you would accommodate that within the 10-day period.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days. Without objection, the subcommittee 
stands adjourned.
    [Whereupon, at 11:08 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman John Katko for the Transportation Security 
                             Administration
    Question 1a. Ms. Stacey Fitzmaurice testified that TSA has 
``additional screening measures that we can apply, the use of canines 
as an example,'' to move non-PreCheck passengers into PreCheck lanes at 
airport checkpoints.
    How often does TSA utilize additional screening measures to move 
non-Precheck-enrolled passengers into PreCheck lanes?
    Question 1b. What data does TSA use to determine a non-PreCheck 
passenger's level of risk? Please describe all factors considered.
    Question 1c. What are the existing guidelines provided to TSO's 
that permit them to move non-PreCheck passengers into PreCheck lanes?
    Question 1d. Please describe all supplemental screening measures 
that TSA employs to offset the risks associated with moving non-
PreCheck passengers into PreCheck lanes.
    Answer. When operating Canine Enhanced Screening (CES), canine 
teams have served as an additional layer of security allowing TSA to 
supplement standard screening procedures, which include screening of 
the person, an Explosives Trace Detection and physical search of their 
accessible property for the entire checkpoint. Through the combined use 
of a Passenger Screening Canine Team (PSC) and Behavior Detection (BD)-
certified TSOs, TSA moved non-TSA PreCheck passengers into the TSA 
PreCheck lane.
    As soon as plausible, and based on concerns recently raised with 
this approach, TSA intends to cease the process of directing non-TSA 
PreCheck passengers into TSA PreCheck Lanes regardless of the use of 
CES. TSA will primarily employ CES in the standard screening lanes. 
When possible, TSA will also run CES in the TSA PreCheck lanes as an 
added level of security.
    Question 2a. How does the Canine Enhanced Screening (CES) program 
differ from traditional canine screening at checkpoints? Does the 
application of the CES program vary between PreCheck lanes and non-
PreCheck lanes?
    Answer. The Canine Enhanced Screening (CES) program is not 
different from traditional canine screening at checkpoints. The 
application of the program does not vary between TSA PreCheck and non-
TSA PreCheck lanes.
    Question 2b. Has TSA explicitly utilized the CES program to replace 
other forms of screening?
    Answer. No, Canine Enhanced Screening adds an additional layer of 
explosives detection at the security checkpoint.
    Question 2c. Is Canine Enhanced Screening used to increase 
throughput at standard screening lanes?
    Answer. No. The primary function of CES is not for increased 
throughput, but rather to serve as an increased layer of detection and 
deterrence.
    Question 3a. Ms. Stacey Fitzmaurice testified that TSA has ``taken 
steps to reduce the number of individuals who would be getting 
PreCheck that are not enrolled.''
    Please describe the steps that TSA has taken as well as relevant 
future actions planned to reduce the number of individuals who are 
being diverted into PreCheck lanes but are not enrolled in PreCheck.
    Question 3b. Does TSA intend to draw down or cease the use of 
rules-based PreCheck screening for passengers?
    Answer. TSA is actively reducing the number of non-enrolled 
travelers in TSA PreCheck lanes. In May 2017, TSA stopped the practice 
of allowing certain passengers who had not been vetted through the TSA 
PreCheck application process from being granted access to TSA 
PreCheck lanes as a result of their frequent flyer status. In October 
2017, TSA began a steady decrease in the overall number of rules-based 
travelers in the TSA PreCheck lanes, at a rate in line with the growth 
of the Trusted Traveler throughput to maintain efficient operations.
    As soon as plausible, TSA intends to cease the process of directing 
non-TSA PreCheck passengers into TSA PreCheck Lanes regardless of 
additional measures in the queue such as Passenger Screening Canines or 
BD certified TSOs. TSA has determined that only passengers with TSA 
PreCheck on their boarding pass will be directed into TSA PreCheck 
lanes.
    TSA employs a governance process to regularly review the rules 
associated with passenger vetting. Based on the most recent review, TSA 
intends to cease certain rules-based inclusion, and continue to draw 
down other rules as described above.
    Question 4a. There are approximately 4,000 Passenger Support 
Specialists at airports across the country who provide on-the-spot 
assistance to travelers during the screening process. Is there at least 
one PSS at each Federalized airport where TSA is responsible for 
screening? If not, is TSA taking steps to increase the number of PSSs?
    Answer. As of April 1, 2018, 82 percent of Federalized airports 
Nationally have at least one Passenger Support Specialist (PSS) (359 of 
440 Federalized airports). As airports are resourced differently, the 
level of assistance a passenger receives at the security screening 
checkpoint may vary. While some airports have an individual who will 
call the passenger to gather additional information and arrange a 
meeting time and place, others may notify the checkpoint manager of the 
passenger's itinerary without pre-contact being made. TSA's goal is to 
have a PSS available during a checkpoint's operational hours. If the 
passenger arrives at the checkpoint and has any concerns before, 
during, or after the screening process, he or she should immediately 
request to speak with a Supervisory Transportation Security Officer 
(STSO) or a PSS for assistance.
    TSA is looking at ways to expand the PSS Program, including 
incentives and/or asking additional groups of Transportation Security 
Officers to complete the training, i.e., focusing on CAT-X airports, or 
focusing on STSOs. While the specific alternatives are not yet 
identified, we intend for the PSS program to grow.
    Question 4b. What specialized training do PSSs receive?
    Answer. Passenger Support Specialists (PSSs) are all Transportation 
Security Officers (TSOs) who receive TSO training as well as a minimum 
of 1.5 hours of additional training in disability etiquette and 
sensitivity that is delivered by a member of the TSA Disability and 
Medical Conditions Coalition. PSSs and TSOs also have the opportunity 
to receive etiquette and sensitivity training in a number of other 
areas, including transgender, religion, tribal affairs, race, and 
handling religious or sacred items. Moreover, training is available to 
all TSOs covering how to engage with individuals across a wide range of 
disabilities and medical conditions. All of these training 
opportunities are hosted by TSA and delivered by its Coalition members. 
The trainings are recorded and available in TSA's On-line Learning 
Center library. TSA intends to continue to increase the number of TSOs 
who receive this training.
    Question 4c. To build upon a person-centric screening process, how 
can TSA expand the PSS program to incorporate a larger percentage of 
TSOs? What kinds of incentives would you recommend to support this 
initiative?
    Answer. TSA is exploring incentives to expand the PSS Program, 
including embedding PSS qualification as a career progression option, 
or as a requirement for promotion.
    Question 4d. How have TSA's public engagement efforts highlighted 
the PSS program as a way to proactively support passengers before they 
arrive at the airport?
    Answer. The availability of a PSS is advertised on the website 
(www.TSA.gov) in multiple locations, including printable fact sheets 
and blog posts. TSA also promotes this service on Facebook, Twitter, 
and YouTube. In addition, the information is provided directly to 
passengers by the TSA Contact Center, via both telephone and email, and 
by AskTSA Social Care agents, when responding to social media 
inquiries.
    TSA also informs the public about the PSS program through the 
following:
  <bullet> A monthly e-broadcast called ``What to Expect,'' which is 
        sent to nearly 400 organizations and advocacy groups in TSA's 
        Disability and Medical Conditions Coalition;
  <bullet> A periodic e-broadcast called ``Know Before You Go,'' which 
        is sent to about 55 organizations and advocacy groups in TSA's 
        Multicultural Coalition;
  <bullet> Operating booths at Coalition-sponsored events;
  <bullet> Hosting regular (at least quarterly but usually more often) 
        Coalition teleconferences and the TSA Annual Coalition 
        Conference in Washington, DC;
  <bullet> Participating as panelists or speakers at Coalition-hosted 
        events; and
  <bullet> Engaging with airlines and airport operators.
      Questions From Ranking Member Bonnie Watson Coleman for the 
                 Transportation Security Administration
    Question 1. Are there any updates on when we can expect to see 
gender-neutral screening technology at checkpoints?
    Answer. The original Advanced Imaging Technology (AIT) was gender-
neutral but required an operator to review every image, which created 
privacy concerns with the traveling public. As a result, TSA developed 
an algorithm to avoid the need for a person to review all of the 
images. To protect the traveling public's privacy, that algorithm 
included considerations to avoid false alarms that would otherwise 
require a passenger to be physically screened. Through the gender 
selection option, TSA was able to reduce the number of times a 
passenger needed to be physically screened by an officer.
    TSA is exploring the potential development of a new configuration 
of the current AIT and demonstrating a new AIT manufacturer to 
accommodate gender-neutral screening while still minimizing the need 
for physical screening due to false alarms. This technology is still 
under development and in the demonstration testing phase with no time 
line for acquisition or deployment. TSA will also include these 
requirements in future solicitations for on-person screening 
procurements as the technology becomes available.
    Question 2. Please provide an update on the written EEO policy 
regarding transgender TSOs.
    Question 3. Please provide data on the number of transgender TSOs 
currently in the workforce at TSA.
    Answer. TSA does not currently have a written EEO policy regarding 
transgender TSOs. Also, TSA does not ask for or collect data on the 
gender identity of its employees and therefore cannot provide data 
regarding the number of transgender TSOs in its workforce.
    Question 4. Do Passenger Support Specialists receive additional pay 
or benefits?
    Answer. Passenger Support Specialists do not receive additional pay 
or benefits.
    Question 5. How does TSA advertise the availability of Passenger 
Support Specialists to passengers, both prior to and upon arrival at 
the checkpoint?
    Answer. The availability of a Passenger Support Specialist (PSS) is 
advertised on the website (www.TSA.gov) in multiple locations, 
including printable fact sheets and blog posts. The Transportation 
Security Administration (TSA) also promotes this service on Facebook, 
Twitter, and YouTube. In addition, the information is provided directly 
to passengers by the TSA Contact Center, via both telephone and email, 
and by AskTSA Social Care agents when responding to social media 
inquiries.
    TSA also informs the public about the PSS program through the 
following:
  <bullet> A monthly e-broadcast called ``What to Expect,'' which is 
        sent to nearly 400 organizations and advocacy groups in TSA's 
        Disability and Medical Conditions Coalition;
  <bullet> A periodic e-broadcast called ``Know Before You Go,'' which 
        is sent to about 55 organizations and advocacy groups in TSA's 
        Multicultural Coalition;
  <bullet> Operating booths at Coalition-sponsored events;
  <bullet> Hosting regular (at least quarterly but usually more often) 
        Coalition teleconferences and the TSA Annual Coalition 
        Conference in Washington, DC;
  <bullet> Participating as panelists or speakers at Coalition-hosted 
        events; and
  <bullet> Engaging with airlines and airport operators.
    Question 6. What additional training do Passenger Support 
Specialists receive? How long does the additional training take?
    Question 7. Has TSA considered providing the same additional 
training to all its officers--essentially making all officers Passenger 
Support Specialists?
    Answer. All Transportation Security Officers (TSOs) receive initial 
and on-going training regarding how to properly engage with passengers. 
TSA emphasizes treating passengers with respect, courtesy, and dignity.
    Passenger Support Specialists (PSSs) receive a minimum of 1.5 hours 
of additional training in disability etiquette and sensitivity that is 
delivered by a member of TSA's Disability and Medical Conditions 
Coalition. PSSs and TSOs also have the opportunity to receive etiquette 
and sensitivity training in a number of other areas, including 
transgender, religion, tribal affairs, race, and handling religious or 
sacred items. Moreover, training is available to all TSOs covering how 
to engage with individuals across a wide range of disabilities and 
medical conditions. All of these training opportunities are hosted by 
TSA and delivered by its Coalition members. The trainings are recorded 
and available through TSA's On-line Learning Center. TSA intends to 
continue to increase the number of TSOs who receive this training.
    Question 8. When assessing the value of the behavior detection 
program, has TSA considered the negative effects of the program on the 
public's perception of TSA?
    Question 9. Has TSA engaged with advocacy groups to ensure that the 
list of concerning behaviors is not based on cultural misunderstandings 
and does not discriminate against any race, ethnicity, or religion?
    Answer. TSA works with stakeholder communities to ensure that it 
understands how its processes and procedures affect them. TSA has 
developed collaborative relationships with a variety of stakeholders 
through the Disability and Medical Conditions Coalition and the 
Multicultural Coalition, and TSA considers their feedback, complaints, 
and concerns.
    Regarding the behavior detection program specifically, TSA did not 
discuss the list of concerning behaviors with stakeholder communities 
because the behaviors were considered Sensitive Security Information 
that could not be shared. TSA did however rely on its own internal 
reviews to ensure that the identified behaviors were not based on 
cultural misunderstandings and did not discriminate against any race, 
ethnicity, or religion.
    TSA has a zero tolerance policy regarding unlawful profiling. This 
prohibition has been reinforced through training and policy directives. 
Additionally, every Transportation Security Officer takes a no-
profiling pledge and is trained and expected to report allegations of 
profiling to local management or TSA's Office of Civil Rights & 
Liberties, Ombudsman, and Traveler Engagement, which is responsible for 
responding to civil rights complaints.
    Question 10. Has TSA considered proactively soliciting passenger 
feedback on a broad scale, such as through surveys or focus groups?
    Answer. TSA has proactively solicited passenger feedback on a broad 
scale. Passenger solicitations, including surveys and interviews, are 
regularly included during checkpoint performance assessments and when 
TSA introduces changes to the passenger screening environment.
    Most recently, TSA conducted a broad-scale field study on passenger 
experience to identify opportunities for improving the ways 
Transportation Security Officers (TSOs) interact with passengers. As 
part of the study, TSA solicited feedback from passengers and TSOs at 
five U.S. airports, varying in size and geographic region, through the 
use of in-depth surveys and interviews.
    TSA distributed passenger experience surveys in TSA PreCheck and 
standard lanes over 8-hour periods at three airports, collecting 
responses from 218 passengers. The survey questions were designed to 
assess passenger perceptions of their general experience and 
interactions with TSOs. To gather more detailed responses to supplement 
and validate survey data, TSA conducted 16 hours of one-on-one 
interviews with TSA PreCheck and standard lane passengers at two 
additional airports, soliciting responses from 166 passengers. The 
topics covered in the survey include: Passenger experience, prior 
knowledge of and consistency of screening procedures, as well as 
passenger perception of the agency and its employees.
    Survey and interview questions were carefully analyzed to identify 
opportunities for improvements to TSO and passenger experiences. All 
questions and survey methods were approved through the Office of 
Management and Budget's Paperwork Reduction Act approval process.
    Question 11. What results have you seen from the introduction of 
additional Divestiture Officers?
    Answer. By posting dedicated Divest Officers (DOs) in each lane, 
TSA has significantly increased passenger engagement. The DO 
communicates to passengers the need to divest items and separate them 
into more bins. This process reduces X-ray on-screen clutter, provides 
a clearer picture, and better enables isolation of items for more 
effective resolution of potential threats or false positives.
    Question 12. How often does TSA reevaluate trainings to consider 
whether updates are necessary?
    Answer. TSA training updates are often made in response to evolving 
threats, procedural/policy changes, and updates to the Standard 
Operating Procedures, which resulted in more than six such updates/
changes in 2017. The training is dynamic and designed to match the 
environment in which the TSA operates. Each year TSA issues a National 
Training Plan that includes not only updated training materials to 
incorporate changes to policies and procedures, but also newly-
developed training that is designed to strengthen and expand 
Transportation Security Officers (TSOs) knowledge base and technical 
skills. The launch of the TSO Basic Training Program at the TSA Academy 
in January 2016, necessitated a full review and redesign of the course 
curriculum that is now being delivered, and continues to be updated to 
align with changes to policies, procedures, and/or information related 
to the threat. Per TSA's Training Standards Management Directive and 
Handbook, a curriculum review may occur at shorter intervals as 
appropriate; however, a comprehensive curriculum review is completed at 
a minimum of once every 5 years.
    Question 13. To what extent is the Office of Civil Rights and 
Liberties included in the process of developing new policies and 
procedures, including the process of choosing technology solutions?
    Answer. The Office of Civil Rights and Liberties, Ombudsman and 
Traveler Engagement (CRL/OTE) reviews proposed TSA procedures to ensure 
compliance with applicable civil rights and civil liberties statutes. 
Additionally, CRL/OTE solicits input from appropriate TSA Disability 
and Medical Condition Coalition and TSA Multicultural Coalition 
stakeholders when a proposed technology solution is identified that may 
affect those communities.
    Through working with TSA's Innovation Task Force, CRL/OTE ensured 
its April 2017 Broad Agency Announcement (BAA), which solicited people, 
process, and technology innovations from industry, required solutions 
that, ``ensure access and equal opportunity as required by Section 504 
of the Rehabilitation Act . . . for individuals with disabilities'' and 
``improve screening of headwear and hair.'' The BAA also encouraged 
vendors, ``to submit solutions that address capability gaps in civil 
rights compliance, including upgrades to improve screening of 
transgender passengers.''
    Question 14. What communications are officers instructed to provide 
to passengers prior to a pat-down to explain what led to the need for a 
pat-down?
    Answer. Prior to conducting a pat-down, Transportation Security 
Officers (TSOs) are instructed to communicate to the passenger the need 
to conduct a search of their person. This includes advising why a pat-
down is required (e.g. alarmed the Walk-Through Metal Detector (WTMD) 
or Advanced Imaging Technology (AIT), passenger elects to opt-out of 
WTMD/AIT screening, passenger's accessible property alarms Explosive 
Trace Detection equipment, passenger is selected for additional 
screening [no identification], or passenger is selected for random 
screening). The TSO also offers the passenger the option of private 
screening. During the pat-down, the TSO will advise the passenger prior 
to conducting a search of each body area. If a pat-down of a sensitive 
area is required, the TSO will provide a demonstration of the search 
procedures prior to beginning the search. The TSO will also make every 
effort to position the passenger where they have the ability to 
maintain visual sight of their accessible property.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
